<html>
<title> - FROM ARAB SPRING TO COPTIC WINTER: SECTARIAN VIOLENCE AND THE STRUGGLE FOR DEMOCRATIC TRANSITION IN EGYPT</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                   FROM ARAB SPRING TO COPTIC WINTER:

                SECTARIAN VIOLENCE AND THE STRUGGLE FOR

                    DEMOCRATIC TRANSITION IN EGYPT

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 112-1-12]
                            
                            
                            
                            
                            
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                            


                        Available via http://www.csce.gov
                   
                   
              
                   
                   

                          U.S. GOVERNMENT PUBLISHING OFFICE
     93-294 PDF                    WASHINGTON : 2015               
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
     
     
     
     
     
     
     
     
     
     
     


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     BENJAMIN L. CARDIN, Maryland,
Chairman                              Co-Chairman
JOSEPH R. PITTS, Pennsylvania         SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama           TOM UDALL, New Mexico
PHIL GINGREY, Georgia                 JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas             RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida            ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,            SAXBY CHAMBLISS, Georgia
New York                              MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina         KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                         
                                     
                                    
                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)
                                  
                                  


                   FROM ARAB SPRING TO COPTIC WINTER:

                  SECTARIAN VIOLENCE AND THE STRUGGLE

                   FOR DEMOCRATIC TRANSITION IN EGYPT

                              ----------                              

                           November 15, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Michael Posner, Assistant Secretary for Democracy, Human Rights 
  and Labor, U.S. Department of State............................     5
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    23

                                 MEMBER

Hon. Gus Bilirakis (R-12), a Member of Congress from the State of 
  Florida........................................................    17

                               WITNESSES

Dina Guirguis, Egyptian American Rule of Law Association.........    18
Samuel Tadros, Research Fellow, Center for Religious Freedom, 
  Hudson Institute...............................................    24
Dr. Michele Dunne, Director, Rafik Hariri Center for the Middle 
  East, Atlantic Council.........................................    27

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    36
Prepared statement of Hon. Benjamin L. Cardin....................    39
Prepared statement of Michael Posner.............................    40
Prepared statement of Dina Guirguis..............................    44
Prepared statement of Samuel Tadros..............................    47
Prepared statement of Dr. Michele Dunne..........................    50

                                 (iii)


                   FROM ARAB SPRING TO COPTIC WINTER:



                  SECTARIAN VIOLENCE AND THE STRUGGLE



                   FOR DEMOCRATIC TRANSITION IN EGYPT

                              ----------                              


                           November 15, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 210, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Joseph 
R. Pitts, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Robert Aderholt, Commissioner, Commission 
on Security and Cooperation in Europe.
    Member present: Hon. Gus Bilirakis (R-12), a Member of 
Congress from the State of Florida.
    Witnesses present: Michael Posner, Assistant Secretary for 
Democracy, Human Rights and Labor, U.S. Department of State; 
Dina Guirguis, Egyptian American Rule of Law Association; 
Samuel Tadros, Research Fellow, Center for Religious Freedom, 
Hudson Institute; and Dr. Michele Dunne, Director, Rafik Hariri 
Center for the Middle East, Atlantic Council.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And I 
apologize for the lateness in convening the hearing. And I 
would ask our witnesses and our audience to have some 
forbearance.
    There are a series of votes on the floor of the House that 
will have members coming in and out. But I want to assure our 
distinguished Assistant Secretary Michael Posner that all of us 
and those who are not here will read your testimony very 
carefully and are very grateful that you're here to give 
testimony to us today.
    I want to welcome all of you to our second Helsinki 
Commission hearing on the volatile and dangerous situation 
facing Coptic Christians in Egypt following the Arab Spring. 
And our hearing is entitled ``From Arab Spring to Coptic 
Winter: Sectarian Violence and the Struggle for Democratic 
Transition in Europe.'' The world watched with hope and 
anticipation, and for some of us, with trepidation as events 
unfolded in Tahrir Square earlier this year.
    This spring we saw Christians standing guard over Muslims 
during Friday prayers in the middle of the square. We saw 
Muslims standing guard over Christians as they celebrated Mass 
in Tahrir.
    Sadly, much has changed since then. While many of those who 
came together to forge the revolution want to continue that 
solidarity as they support Egypt's political transition, there 
are many others--far too many others who do not.
    The transition period has been increasing in violence 
against Coptic Christians. The current Egyptian government 
controlled by the Supreme Alliance Council of the armed forces 
has not adequately responded to this violence, has not 
protected vulnerable Coptic Christians and as we have seen on 
video, to our horror, has even committed acts of violence 
against Coptic protestors.
    On Sunday, October 9th, 27 people were killed and more than 
300 injured in Maspero when Egyptian military attacked a 
peaceful group of Coptic Christians protesting the burning of a 
church in Aswan and demanding the removal of the governor of 
Aswan who had justified the mob's destruction of the church.
    In this massacre in Maspero, witnesses saw the army firing 
on Coptic demonstrators with live ammunition and plow through 
the crowd with armored vehicles. Soldiers raided and stopped 
the live broadcast of two independent news channels that had 
been covering the clashes.
    At the same time, state-run television and radio reported 
that the Coptic demonstrators had attacked the military and 
called for honorable citizens to defend the army against 
attack, inciting violence against the Coptic minority.
    Amid widespread domestic and international outrage over the 
events, the White House issued a statement on October 10th 
saying that, quote, ``The president is deeply concerned about 
the violence in Egypt and that has led to a tragic loss of 
life. Now is the time for restraint on all sides so that 
Egyptians can move forward together to forge a strong and 
united Egypt.''
    With all due respect, the president seems to have 
completely missed the point. This is not a situation of equal 
power and equal responsibility for violence. This was not a 
lawless gang clash on the street or a mob marauding the streets 
in the absence of a government. The Coptic community was 
protesting the fact that the Egyptian government in Aswan 
failed to protect Coptic property and allowed a mob to burn 
down the Coptic place of worship.
    When Copts called on the military government to treat the 
Copts as equal citizens and protect their rights, the 
government itself turned on them with a massacre. The time has 
come to ask if this government going to be better than the 
Mubarak thug regime. This same government is investigating 
itself for the incident and its assault on human rights 
continues.
    In fact, the military has arrested at least 28 people, 
mostly Copts, in connection with the clashes, including 
prominent blogger Alaa Abd El Fattah. These individuals are 
being hauled before military prosecutors.
    To date, despite multiple videos and eyewitnesses' accounts 
showing the military's use of lethal violence against peaceful 
protestors, the Egyptian military has yet to take 
responsibility for its actions or otherwise demonstrate that it 
will protect all Egyptians, including the Coptic minority who 
make up more than 10 percent of its population.
    According to the press reports of last week, a member of a 
government-backed fact-finding committee said that the Egyptian 
army did not use live ammunition to disperse protestors during 
the October 9th incident.
    Yet, Hafez Abu Sayed Seada, a senior figure in the 
government-sponsored National Council for Human Rights, which 
set up the committee, also said that an independent 
investigation was needed to establish the full facts and that 
some state institutions, including the army, did not cooperate 
fully with the committee. Rights activists including the Arab 
Network for Human Rights Information and Human Rights Watch 
have criticized the report for a lack of detail. Tragically, 
the massacre at Maspero is not an isolated incident but rather 
a continuation of the endemic discrimination against and the 
marginalization of Coptic Christians in Egypt.
    According to the 2010 State Department international 
religious freedom report for Egypt, and I quote, ``The status 
of respect for religious freedom by the government remained 
poor, unchanged from the previous year.'' Christians and 
members of the Baha'i faith, which the government does not 
recognize, face personal and collective discrimination, 
especially in government employment and their ability to build, 
renovate or repair places of worship.
    The government failed to prosecute perpetrators of violence 
against the Coptic Christians, according to the State 
Department report, and failed again to redress laws, 
particularly laws relating to church construction and 
renovation and government practices, especially government 
hiring that discriminates against Christians, especially 
allowing their discriminatory effects and their modeling effect 
on society to become further entrenched. The U.S. Commission on 
International Religious Freedom has noted that, and I quote, 
``In response to sectarian violence, Egyptian authorities 
typically conduct reconciliation sessions between Muslims and 
Christians as a means of resolving disputes. In some cases, 
authorities compel victims to abandon their claims to legal 
remedy. The failure to prosecute perpetrators fosters a climate 
of impunity,'' close quote.
    A report by the Egyptian Initiative for Human Rights 
covering the period from January '08 to January 2010 documented 
53 incidents of sectarian violence, about two incidents per 
month that took place in 17 of Egypt's 29 governorates. Most of 
the attacks were by Muslims on Christians and Christian 
churches or property. Egypt will not reach, I would submit, its 
democratic goals through the oppression of its minority 
peoples.
    Democracy does not come with an iron fist. Rather, 
democracy springs from the belief that all people are created 
equal and have the right to participate in their own 
governance. A legitimate government is of the people, by the 
people and for the people, including minorities. A legitimate 
government submits to the rule of law.
    The Egyptians demonstrated their belief in Tahrir Square 
but seem to be losing their way, spinning backwards into 
tyrannical abuses of power. If there is any hope for a 
democratic and peaceful Egypt, the Copts must be allowed to 
contribute actively to Egyptian society and to the 
transformation of their country without fearing for their 
lives.
    I'd like to now introduce our very distinguished first 
witness, a man I've known for many years when he used to work 
for the committee for legal scholars--the lawyers rights 
committee--as well as for other human rights organizations in 
the past--Human Rights First. And I'll introduce him and I 
understand there is another vote. It's on.
    And I will have to report to the floor. So we'll be in 
brief recess and then Mr. Posner--Secretary Posner, we'll ask 
you to present your testimony. And I know some of the members 
will be back then. But so maybe on that point I'll just--we'll 
be in recess for just a few minutes. Sorry about that. The 
commission will resume its hearing. I'd like to yield to 
Commissioner Joe Pitts from Pennsylvania.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. And thank you for 
holding this important hearing. It is important that we 
continue to stand by the people of Egypt as they seek a stable 
and transparent democracy where all Egyptian citizens are 
treated equally. Recent trends in Egypt in terms of attacks 
against minorities are deeply disturbing.
    Reports indicate that on October 16, teenager Ayman Labib 
was in his Arabic class when the teacher told him to get rid of 
the cross tattooed on his wrist. When Ayman said it was a 
tattoo, the teacher asked the other students, quote, ``What are 
we going to do about this,'' end quote. And he incited the 
students in the class to attack Ayman.
    Ayman tried to flee but ultimately the students, with the 
support of their teachers, murdered this young man. Egyptian 
news media controlled by the military government, has tried to 
deny the sectarian reasons for this brutal murder. After the 
new antidiscrimination law put into place after October 9 when 
Egyptian security forces ran over Copts with bulldozers, will 
those teachers and adults and students be brought to justice 
for this brutal murder?
    The October 9 attacks by the military against peaceful 
protestors do not bode well for the protection of fundamental 
rights for all Egyptians. The Egyptian military must bring the 
perpetrators of these violent acts to justice through a 
transparent investigation which punishes those truly 
responsible for those heinous acts.
    I still have hope for a peaceful Egypt but that will only 
happen if those who care about the protection of all people are 
in power. I look forward, Mr. Chairman, to hearing from our 
guests. I look forward to hearing from administration officials 
about specific actions they have taken to uphold and protect 
the rights of minorities in Egypt. With that, I yield back.
    Mr. Smith. Thank you very much, Commissioner Pitts. I'd 
like to now introduce Michael Posner, who has served as 
assistant secretary of state for the Bureau of Democracy, Human 
Rights and Labor since September of 2009.
    Prior to joining the State Department, Mr. Posner was the 
executive director and the president of Human Rights First, 
where he established himself as a leader in the defense of many 
critical human rights issues. He holds a J.D. from the 
University of California at Berkeley and his full resume will 
be made a part of the record without objection. But I welcome 
Secretary Posner to our commission. Please proceed.

MICHAEL POSNER, ASSISTANT SECRETARY FOR DEMOCRACY, HUMAN RIGHTS 
              AND LABOR, U.S. DEPARTMENT OF STATE

    Sec. Posner. Thank you, Mr. Chairman, for holding this 
hearing, for inviting me to testify. We've worked together for 
many years and I'm always appreciative and admiring of your 
passion, your commitment, your determination, your unflagging 
energy to the cause of human rights. So I appreciate your doing 
this today and I welcome, Congressman Pitts, your participation 
as well.
    As you know, this is a time of substantial transition in 
Egypt as Egyptians strive to move their country towards 
democracy. It's not an easy process and it's not going to 
happen overnight. Egypt is only starting on the path from 
parliamentary elections that will begin in a couple of weeks to 
the process of drafting a new constitution and to presidential 
elections.
    As part of this process, it's vital that there be a place 
in the new Egypt for all citizens, all religious minorities, of 
which the Coptic Christian community is the largest. While the 
focus of this hearing and my testimony is on the situation of 
the Copts, I want to point out there are other religious 
minorities that also suffer official discrimination, groups 
like the Baha'i, groups in the Muslim community--Shia, 
Ahmadiya, Quranist--as well as Jehovah's Witnesses and Mormons.
    The Government continues to refuse to recognize conversions 
of Muslims to Christianity or other religions which constitutes 
a prohibition in practice. I want to set this testimony in a 
broader context. Last week, Secretary Clinton gave an important 
policy address in which, Congressman Pitts, she echoed 
something that you just said. She said: We support the 
aspirations of citizens to live in societies that guarantee 
freedom, including freedom of expression, assembly and 
religion. We strongly believe in systems that allow citizens a 
say in how they're governed and that they will--that they will 
be provided with economic opportunities.
    These are the demands we heard in Tahrir Square where Copts 
and Muslims joined hands to protest and to pray. We've heard 
similar demands echoing throughout the Middle East and 
elsewhere. Secretary Clinton also spoke out consistently about 
the importance of religious freedom and religious tolerance 
both of which are fundamental human rights. Religious freedom 
is guaranteed by international human rights law.
    I have a longer written statement which I ask be made part 
of the record. But I just want to make three broad points about 
the Copts in Egypt. The first is that they have faced 
discrimination for many years. They face personal and 
collective discrimination especially in government employment, 
the ability to build, renovate and repair places of worship.
    Although they represent about 10 percent of the population, 
they play an important role in Egypt's economy. They've 
suffered widespread discrimination and remain underrepresented 
in prominent positions in Egyptian politics and society. The 
headlines tell a disturbing story. I was actually in Egypt in 
January 2010 when there was the horrendous attack on the Nag 
Hammadi Church in Upper Egypt.
    Gunmen shot and killed seven people and worshippers who 
were leaving midnight mass. Yesterday actually the government 
official news agency announced that two of the suspects in that 
murder who had previously been acquitted are about to be 
retried on December 19th, which is a positive sign. But the 
attacks and the violence has gone on.
    About a year after the Nag Hammadi attack, on January 1st 
of this year, a bomb exploded at the Coptic Orthodox Church of 
the Two Saints of Alexandria, killing 23 people and wounding a 
hundred. There are, today, no suspects in custody. The second 
point is that the violent attacks that are historically there 
have actually in some ways increased numerically since February 
11th, since the change of government.
    We've received reports of at least 67 people killed in 
religious clashes, most of them Coptic Christians. This brings 
the total number of reported deaths this year to more than 90. 
There have been at least six reported major attacks of violence 
against the Copts. I list them all in my testimony but I just 
want to mention two.
    On September 30th, in the Merinab village in Aswan, an 
estimated crowd of 3,000 Muslims looted and burned the St. 
George Coptic Orthodox Church in addition to some Copt-owned 
homes and businesses. The status of the investigation in that 
case is unclear.
    And on October 9th, as you both have mentioned, in Cairo 
violence erupted in front of the Egyptian television building 
known as the Maspero as a demonstration by Copts protesting the 
government's failure to investigate the burning of the church 
in Merinab. At least 25 people were killed, more than 300 
injured.
    In these and other cases, we have made clear our deep 
concern about the violence against the Coptic community and the 
need for accountability. On October 11th, Secretary Clinton 
called for an immediate, credible, transparent investigation of 
all those who were responsible for the Maspero violence with 
full due process of law.
    The White House issued a similar statement urging Egyptians 
to move forward to forge a strong and united Egypt, reaffirming 
our belief in religious minorities. In raising our concerns, we 
are aware that the government of Egypt is doing some things and 
I want to point them out. They have in fact initiated two 
investigations in response to the Maspero violence.
    The first is an Egyptian armed forces review of the conduct 
of the military police. As you've indicated, the military 
police according to eyewitnesses and video evidence ran over 
and shot at demonstrators. Separately, military prosecutors are 
investigating about 30 demonstrators, including one prominent 
blogger, who were detained during the violence. They're accused 
of inciting violence and attacking security forces.
    During the height of the clashes--and this is something I 
want to emphasize as well--one of the state TV anchors called 
on honorable Egyptians to defend the army against attacks by 
violent demonstrators. Twenty-one prominent Egyptian human 
rights organizations have criticized the official media for 
what they call their inflammatory role in actually provoking 
greater violence.
    The Coptic community is as concerned as we are about the 
severity and frequency of these attacks. While they recognize, 
as we do, that these attacks are not necessarily not the 
product of government provocation, they're greatly concerned, 
as we are, about the need to hold perpetrators accountable.
    I want to make clear that most of the clashes have involved 
both Copts and Muslims and members of both communities have 
been perpetrators as well as victims. It's also important to 
note that many Muslims have stood up to defend members of the 
Coptic community against extremist violence.
    I want to finish with two other things that the 
government's now doing which is important for us to emphasize 
and reinforce. One, the government has pledged to adopt a 
unified places of worship law which would guarantee all faiths 
the ability to construct and maintain places of worship. This 
is a debate that's gone on for years. The government--the 
Cabinet sent a draft law to the military council in October.
    We urge strongly, and we have been in discussion with the 
government, the prompt adoption of this provision. That would 
send a very strong signal of the government's commitment to 
protect religious freedom. And finally, we welcome steps the 
government has taken to reduce discrimination in their penal 
code.
    On October 15th, the SCAF issued a decree amending the 
penal code to prohibit discrimination on the basis of religion, 
gender, language, faith or race. This provision reinforces and 
will give life to Article 7 of the March 31st constitutional 
declaration on the same subject. We urge the government to 
enforce these provisions and to make nondiscrimination the 
order of the day.
    Like Egyptian Muslims, Egyptian Copts are concerned about 
their country's future. In addition to security from sectarian 
violence and equal treatment under the law, they want equal 
representation in parliament, a proportional voice on the 
committee that will draft the new constitution. The vast 
majority of Egyptians support religious freedom and we support 
their efforts.
    As Secretary Clinton said last week, and I'm quoting here, 
``If over time the most powerful political force in Egypt 
remains a room full of unelected officials, they will have 
planted the seeds for future unrest and Egypt will have missed 
an historic opportunity.''
    Mr. Chairman, the door for real democratic change is only 
beginning to open in Egypt. We hope Egyptians will walk through 
it together towards a more peaceful and prosperous future. 
Thank you.
    Mr. Smith. Secretary Posner, thank you very much for your 
testimony. And I'd like to begin with a few questions. The 
first would be whether or not you believe and whether or not 
the department believes that the Supreme Council of the Armed 
Forces deliberately provoked a confrontation with the Coptic 
Christian demonstrators on October 9th.
    Will they be able to credibly investigate themselves 
regarding that incident as they have claimed that they will? 
And then what steps do you believe that the government will 
take--proactive steps to ensure that those kinds of events 
don't happen again?
    Sec. Posner. Thank you, Mr. Chairman. We have--we see no 
evidence of deliberate provocation. What is of concern and what 
I highlighted in the testimony is, one, that there be a real 
investigation and accountability for the actions of both the 
military police and the security forces. That's the first and 
best protection against future acts of violence. There needs to 
be a clear demonstration that those responsible will be held 
accountable and that the government is fully committed to 
investigating these acts. The second--the piece that I talked 
about last I think also helps set a climate of tolerance and of 
official recognition of the importance of diversity.
    The unified law allowing churches and mosques on the same 
status and all religions to build religious facilities, to 
repair them and the like, that's an important demonstration by 
the government that it is operating on the theory that all 
religions need to be treated the same, as well as the 
provisions in the penal code dealing with discrimination.
    So I think those two things together--strong investigation, 
prosecution, accountability and affirmative steps by the 
government by word and deed that suggests in fact the new Egypt 
is one where there is no official discrimination and the 
government respects the ability of every religion to practice 
freely.
    Mr. Smith. If I could, with regards to the investigation, 
has the government sought the help of ourselves or any other 
international law enforcement asset, whether it be the FBI, 
Scotland Yard, any other Arab armed forces network to ensure 
that it's aggressive, credible and comprehensive?
    You and I both remember that one of those--what helped in 
Northern Ireland tremendously was when international 
investigators were invited to be--to work in a cooperative way 
with the RUC to ensure that acts of violence by the 
paramilitaries were investigated properly.
    It takes the--I would suggest--the tinge out of whether or 
not it's a real investigation or not or whether or not there's 
an effort to suppress evidence. Has anything like that 
happened? Have they reached out to us or any other country?
    Sec. Posner. I'm not aware of any request for our help. I 
will say one of the things we are very mindful of and sensitive 
to is that both in the political process and in the reform 
process these are steps that need to be led and directed by the 
Egyptian people themselves. We stand ready, and the government 
knows that, to provide assistance as it's useful and necessary.
    I know there have been some discussions in a broader sense. 
I've been part of some of those discussions with the Ministry 
of Interior about ways in which there can be, you know, 
enhanced police reform and training. We stand ready to be 
helpful. But we are also mindful of the importance that these 
reforms need to be initiated by and directed by the government 
of Egypt.
    Mr. Smith. Do you think we should reach out to them purely 
on a technical assistance basis? I mean, some of the very 
advanced protocols that our law enforcement people employ 
certainly would ensure a more comprehensive investigation. Is 
it something you might take back and look and see whether or 
not that might be useful?
    Sec. Posner. I'm glad to take that back. I had a good 
conversation with Ambassador Patterson on Thursday. She is 
adept, as good as our diplomatic corps ever produced. She knows 
the scene there very well now and is in constant conversation 
both with the government and with the SCAF.
    And I have every confidence that if there's a way in which 
we can be helpful, we will make the government aware of that. 
And we certainly--it's not lost on the government of Egypt how 
important their next actions are with regard to this attack. 
It's gotten a huge amount of attention both here and in Egypt. 
And they know well. This hearing is another example of the 
extent to which the accountability issue needs to be addressed.
    Mr. Smith. Secretary Posner, as you know, immediately prior 
to the revolution there was a huge cut in economic assistance 
for human rights and democracy building. And laying blame 
nowhere, whether it be on Congress or the administration, it 
was rather significant. Could you tell us how much U.S. 
economic assistance today is directed towards promoting human 
rights?
    Sec. Posner. Well, as you know, Mr. Chairman, for FY '10 we 
undertook to shift some of the economic support funds to 
democracy and governance.
    And some combination of our offices, the Middle East 
partnership--MEPI--and USAID, are now funding a range of 
activities--support both for strengthening democratic 
processes, training of political parties, voter education, et 
cetera, but also working with independent labor unions and 
journalists on some of the issues we're discussing today.
    The number, I think, is in the vicinity of $50 million for 
FY '10. And I think we're--again, this is part of what the 
discussion has been internally in our government and with 
members of Congress. I think it's important that we now 
recognize, and we do, that there are a range of places we can 
and should be helping in sustaining and encouraging the 
democratic process to go forward.
    Mr. Smith. Just two final questions. How does a Coptic 
Christian raise a concern with the government and work to 
protect their own civil liberties? Who do they go to?
    Sec. Posner. Well, I think, you know, one of the--hopefully 
one of the signposts for the future will be the election over 
the next several months of a new--of a new parliament which 
will include members of a new political order who are going to 
be more open and responsive to the needs of all Egyptians, 
including the Coptic community.
    We are certainly encouraging Egyptians of all faiths to 
participate actively in these elections which start on November 
28th. And I would think that would be the best starting place 
for people in the Coptic community and all Egyptians to begin 
to use their democratic muscles and raise concerns of their own 
communities.
    Mr. Smith. But what happens--I was one of those who was 
skeptical and I wasn't alone in that, you know, as people were 
getting teary-eyed over whether or not this meant real reform 
or a further consolidation by groups like the Muslim 
Brotherhood.
    And I would appreciate your thoughts on the Muslim 
Brotherhood, if you would, whether or not perhaps we may as a 
government have underestimated their knowledge and appearing to 
be more moderate but now are consolidating more power.
    And frankly, in terms of election muscle, I mean, 
minorities by definition are profoundly disadvantaged which is 
why, at least our country and many countries, have very strong 
rules protecting minorities.
    And I know, you know, there are places that--so many of us 
are known as Democrats or Republicans, we run for election, if 
we're gerrymandered into a certain area, you know, you could 
provide the greatest service imaginable and still not get 
elected and still not potentially have your voice heard.
    And I think when you're about 10 percent of the population 
and there is this governmental or very profound bias against 
Coptic Christians, and as you mentioned there are other ethnic 
or religious minorities as well, unless you have strong 
protections, you know, their disadvantage becomes perhaps even 
persecution, which I think is what's happening now.
    Dina Guirguis will testify later. And when you answer that, 
if you could just respond to this comment because she said, or 
will say, one only needs to give a cursory look at SCAF's 
history since its assumption of power. Over 12,000 civilians 
have been tried in military tribunals that do not meet minimum 
standards of due process.
    Female protestors have been subjected to degrading 
virginity tests. The notorious emergency law has been extended 
and numerous laws restricting freedom of assembly and even 
criminalizing criticism of the military have been opaquely 
passed and enforced in draconian fashion.
    And then she goes on, local rights groups have already 
decried these abuses even more, including SCAF's pre-election 
conduct which observers accurately note portends to substantial 
fraud in the upcoming elections where Islamists are expected to 
win a substantial parliamentary presence. That paints an 
extremely ominous present and certainly a more ominous future. 
What's your take on that?
    Sec. Posner. You know, I would say having worked in the 
human rights field for 30-some years that I'm an eternal 
optimist. So take this comment with that in mind. I believe we 
are at the beginning of a transition in Egypt. Some might call 
it a transition to a transition. I don't think we can expect to 
see instantaneously the kind of a democratic foundation laid 
that we would all hope and expect to see over time.
    Secretary Clinton in her speech last week spoke about this 
and I think some of the elements you've raised are exactly the 
things we need to be pressing on. We do believe that there 
ought to be and needs to be a lifting of the state of 
emergency.
    We do believe that there needs to be an opening up of the 
process for, you know, there to be a real lively debate where 
multiple parties are allowed to function freely, where there's 
a free press, where state television takes on a more balanced 
approach, where religious freedom flourishes. Those things are 
going to happen over time if there's a sustained push by 
Egyptian people supported by governments like ours.
    We don't believe--we don't--what we want to see is that 
parties that are committed to rejecting violence, that abide by 
the rule of law, that respect freedoms of speech, religion, 
association, that respect the rights of women are allowed to 
participate.
    Our view is if that happens over time we're going to get a 
result that we like that's going to lead to a real democratic 
transition. We've got to hold our nerve. We've got to stay 
involved and engaged. But I think we all understand that there 
is a range of challenges that we face in the coming weeks and 
months that we need to be attentive to and we need to, at the 
same time, be patient and resolute.
    Mr. Smith. Is there concern that we might be 
underestimating the Muslim Brotherhood?
    Sec. Posner. I think we are. Certainly as we watch what is 
happening it's clear that the Muslim Brothers are well 
organized as a political party and that they will compete 
actively and aggressively in the election. Again, the decision 
about who to vote for is for the people of Egypt.
    Our role and our goal needs to be to promote a long-term 
democratic transition that's based on the notion of 
strengthening of a political process that's going to lead to a 
democratic, freely elected government, a constitution that 
supports that and the democratic infrastructure that yields the 
kind of result that we're going to be--that Egyptian people are 
going to feel proud of and that's going to make them a good and 
stable ally.
    Mr. Smith. I do have one final question. And that would be 
a few months ago Michele Clark, who used to be number two at 
ODIHR and you and I did have a conversation about this, as 
you'll recall, she testified and said, it's no longer a matter 
of allegation that young Coptic teenage girls are abducted. She 
said the number was in the thousands.
    And when they turn 18, after the kidnapping, they are given 
to an Islamic man, a Muslim man who then makes her his wife. 
Women are often subjected to a great deal of exploitation, 
compounding the original kidnapping itself.
    And she even talked about the very awful term that this is 
an Islamization of the womb, Islamicizing the womb, that 
whatever children she bears will be Muslim, which is an 
absolutely outrageous human rights abuse from every way that 
it's looked at--the kidnapping, the trafficking, the forced 
conversion and then the subsequent forced conversions of any 
children born to her in that so-called marriage.
    Have you been able to look into that as a bureau? I know 
the ambassador--Congressman Wolf took the information from that 
hearing and had a meeting in his office and asked her to, you 
know, aggressively look into it. Michele said--Clark said that, 
you know, we should no longer use the word allegation, that 
it's beyond that. She did the investigations herself.
    And matter of fact, she said, these reports--this is her 
quote from July 22nd here in this room at a Commission hearing: 
``These reports are not allegations nor should they be 
disputed. Coptic women disappear.
    ``Coptic women are forcibly converted or converted under 
false pretenses. And Coptic women are forcibly married to 
Muslim men.'' What is your--what has your investigation or 
looks into this discovered?
    Sec. Posner. We are--I know that you've raised this and we 
had a previous conversation about it. And I have made inquiries 
about the particular cases. We have--let me say broadly we 
obviously are greatly concerned about the Egyptian government's 
failure to allow conversion of Muslims to Christianity and the 
various measures, coercive measures or discriminatory measures 
against those who seek to express their religious faith.
    The particular cases that she raised, we have not been able 
to substantiate the facts, although I'd be willing or people in 
our office would be willing to meet with her.
    But we are concerned about the broader phenomenon of the 
kind of coercive or discriminatory measures against people who 
are either trying to convert from Islam to Christianity, which 
the government doesn't recognize, or the kinds of coercive 
things that she raises. Again, the particular cases I can't 
speak to.
    Mr. Smith. If you could--
    Sec. Posner. But if--
    Mr. Smith. Oh, I'm sorry, Mr. Secretary. If you could, how 
robustly have we tried to substantiate--have foreign service 
officers or human rights officers gone into the field? Have 
they done extensive interviews to determine whether or not this 
is a barbaric phenomenon that's ongoing?
    Sec. Posner. We have made inquiries through the embassy. 
And what I can do and I will do and I promise to do is go back. 
I'd actually like to get a hold of her testimony and maybe have 
people in our office talk to her and then we can look at the 
specific cases that she raises. And we'd be glad to look at it 
in more detail.
    Mr. Smith. So just to be clear, have any of our human 
rights investigators gone out and done any first-person 
reporting on this?
    Sec. Posner. Well, I think you and others have said this is 
a phenomenon and the cases that have come to our attention we 
have gone to look to see if can we we can verify the facts. We 
haven't been able to do that. But that doesn't mean it's not 
happening.
    So what I would suggest is let me take a look at the 
testimony that she gave to you. If there are particular cases 
and facts, we welcome getting them. And then we will--I will 
endeavor to make sure that either people in my office or people 
in the embassy follow up and they get to the bottom of what's 
happening in those cases.
    Mr. Smith. If you could, because her testimony was very, 
very incisive and outrageous, what she uncovered. I mean, she 
even went through how it's often done, the befriending of 
Coptic girls by Muslim girls, that it's a process and that it's 
just--as well as straight-up, flat-out abductions and all 
leading to the same consequence.
    Sec. Posner. Right. The thing that would be most helpful to 
us is if there are particular cases with facts, et cetera, that 
we can then pursue rather than the general pattern.
    Mr. Smith. Sure. But if we could also be looking to see on 
our own, you know, not just following up on one of her leads 
because it would seem to me that, you know, it's like any other 
kind of abuse. Unless we're really aggressively looking for it, 
it is so easy to conceal this.
    And so I'd like to--before I yield to Commissioner Pitts, 
you know, Fred Grandy, a former distinguished member of the 
House of Representatives, is here. He's executive vice 
president of the Center for Security Policy. I want to welcome 
our former colleague for joining us today. Thank you--thank him 
for his work on Egypt. I'd like to yield to Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman. Secretary Posner, thank 
you for your testimony. Do you have or could you provide a list 
of the actions such as meetings with advocacy groups, public 
statements, conversations with Egyptian officials or activities 
at the UN that this administration including the State 
Department has taken since January to support the rights of 
minorities in Egypt? And if this list is not available today, 
could you provide us as list in writing?
    Sec. Posner. Sure. You know, there are--you just mentioned 
five or six categories of things and we've done--we've taken 
actions in all of those areas. I can certainly--I'm not sure I 
can present a comprehensive list but I can certainly send you a 
representative list of the kinds of discussions we've had with 
the government, the kinds of support and discussions we've had 
with civil society.
    I routinely meet with civil society groups when I'm in 
Egypt. It's most of what I do, meet with the government as well 
as meet with groups here. So I'd be glad to provide some 
representative or illustrative examples of what we're doing. We 
take these issues extremely seriously.
    This is an extremely important area to Secretary Clinton, 
and to me personally. And we're very aware of the precarious 
state of the Coptic community. These attacks are very serious 
and we want to do whatever we can to put--you know, to make 
sure that this kind of violence and discrimination doesn't 
continue.
    Mr. Pitts. Thank you. What actions has the State Department 
taken since the October 9 incident when the military directly 
attacked and killed Egyptian citizens? To press the Egyptian 
government for a transparent investigation and to press the 
Egyptian government to prosecute those who were actually 
responsible for the murders of citizens?
    Sec. Posner. As I mentioned briefly in my oral comments, 
and I think there's a bit more detail in the statement I 
submitted, both the president and Secretary Clinton have issued 
public statements about the attack. Ambassador Patterson has 
been engaged almost on a daily basis since October 9th in 
urging and reiterating the importance of there being a strong 
investigation and prosecution of those who are involved. We are 
very mindful of the potential for there to be an escalation of 
violence.
    This was a tragic incident where people were killed, many 
more injured. And so we have been very, very mindful of it. 
I've talked several times to Ambassador Patterson about it and 
she is completely aware of all the details. There have been 
discussions with the military, discussions with security 
forces, ministry of interior and the like. We will continue to 
press.
    As I said in the testimony, there are two investigations 
underway. Investigation doesn't equal results. And so our focus 
now is making sure that the people who were involved in these 
violent acts are brought to justice, that there are 
prosecutions and convictions and that the government is clear 
in its public statement and its action that this kind of 
violence cannot be countenanced.
    Mr. Pitts. We all know that if there are no prosecutions in 
relation to these violent acts against minority groups--the 
Coptic Christians--then violence is going to continue. Do you 
know of any successful prosecutions against violent acts 
against Coptic Christians?
    Sec. Posner. Yeah. And, you know, again I would come back 
first of all to the tragic attacks in Nag Hammadi in January of 
2010. I was in Egypt literally two weeks after those people 
were gunned down. I met with the ministry--the head of state 
security. I met with people in the government to make just the 
point you're making.
    There has to be a serious investigation that leads to 
prosecutions. One of the principal perpetrators was prosecuted 
and convicted. Two were acquitted, and as I mentioned in my 
testimony, yesterday the government--the court reopened the 
case against those two and they will be put on trial before a 
military court on December 19th. So that's one example.
    There are several others. But we're not satisfied that 
enough has been done. And certainly in the case of the October 
9th violence, it's critical that there be a full investigation 
and prosecution.
    Mr. Pitts. Thank you. What role should the United States 
play in promoting human rights and religious freedom 
specifically? The chairman asked about how much economic 
assistance was directed towards promoting human rights. What 
kind of things should we be doing specifically to promote these 
principles?
    Sec. Posner. Well, I think in a broad sense all of the 
building blocks of democracy are information and we ought to do 
what we can to reinforce that development. There is a lively 
civil society in Egypt. But many of the organizations are not 
yet able to register. We've raised concerns about that. We need 
to be supportive of an independent media.
    We need to support bloggers and activists who continue to 
raise concerns that are among the issues we're discussing 
today. So there are a range of things that I think we've begun 
to do and we need to stay on that course. We need to make sure 
that there is a move away from a government that relies on an 
emergency law, move more towards a civilian rule of law and we 
need to support a political process that allows multiple views 
by nonviolent people--parties--that respect religious freedom, 
freedom of speech, association and the rights of women.
    Mr. Pitts. Now, you mentioned earlier the importance of 
diversity. How could the authorities involve Islamic and 
Christian religious establishments in a strategy to strengthen 
this idea of diversity, of values, of religious tolerance and 
coexistence?
    Sec. Posner. You know this is a process. I think we start 
from a premise--I start from a premise that for several decades 
institutions of government and nongovernmental institutions 
were ossified. They weren't allowed to flourish and operate 
openly.
    And so when I say we're in the beginning of a transition, 
we're at a place where we can encourage but Egyptian people to 
have to lead in creating a more open discussion both about 
advancing pluralistic democratic political process but as part 
of that encouraging diversity of views, diversity of religions, 
and a diversity of perspectives as part of that mix.
    We take these things for granted in a society where we've 
had a lot of experience dealing with it. We're in, in Egypt, in 
a very early stage of a transitional process where all of these 
elements are still being set up, as it were.
    Mr. Pitts. What about training, for instance, for judges, 
for prosecutors, for police, teachers, whomever, those who are 
responsible for administering and applying the law about 
respecting these rights?
    Sec. Posner. I think those are critical elements. And those 
are very much--
    Mr. Pitts. Are we engaged in encouraging that?
    Sec. Posner. Absolutely. I mean, there are discussions 
going on now between our governments about how can we best 
support a transformation, transition in the police. We have--
there's a long history of the police playing a--state security 
playing roles that we would consider antithetical to the way in 
which we practice democracy.
    And so it's important that there be a move towards 
professionalizing the police, professionalizing the courts, 
creating, as I say, strong civilian institutions that are the 
kind of foundation, the basis for a democracy. All of that's on 
the table. We're doing training already of some of the 
political parties, voter education and all of that.
    But democracy isn't just elections. It's also building 
those strong institutions--police, prosecutors, courts, the 
media. All of those institutions are part of what makes 
sustainable democracy real. And we're very much engaged in the 
discussion of all those things. Again, I want to say again, 
though, we need to take our lead from people of Egypt.
    This is their moment of transition and it's critical that 
Egyptians lead. We are more than willing--we're eager to be a 
strong partner in those efforts. But we've got to come in in a 
way that reinforces what Egyptians themselves are demanding and 
pursuing.
    Mr. Pitts. Thank you. Now, I was a little surprised with 
your answer to the chairman about this barbaric practice of 
forced, you know, kidnapping and forced conversion, if you 
will, forced marriages and conversion of Coptic Christians. 
For, you know, 15 years I've talked to people in Egypt who said 
this is a common practice. Doesn't the State Department--aren't 
they aware of this? Aren't they pursuing this issue?
    Sec. Posner. As I said, Congressman, we are very aware of 
the discriminatory practices that make it very difficult, for 
example, for people to convert from Islam to Christianity. We 
are aware of the discrimination and some of the harassment of 
the Christian community. That's what this hearing is about. On 
the subject of abductions--
    Mr. Pitts. And marriage--forced marriage.
    Sec. Posner. And forced marriage--the broad allegations are 
out there. What we're--what we need and what we're looking for 
are specific cases that we can pursue. If we get those cases, 
we will pursue them ourselves and raise them with the 
government.
    We know those allegations are out there but as of this 
moment they're not specific cases where we've been able to 
substantiate what's been alleged in a broad sense. I'm not 
saying it doesn't happen. What I'm saying is the more 
information we get, I am very open--in fact eager--to get 
information about specific cases that we can then examine 
ourselves and take to the government of Egypt.
    Mr. Smith. Would my friend yield?
    Mr. Pitts. Yes.
    Mr. Smith. My concern is that we're not even looking and 
not looking--I mean, this isn't something that's going to walk 
up and say, here's a forced marriage.
    Because of retaliation, because of the killing of the young 
woman or the fact that in many cases she feels that she cannot 
go back to her Coptic family and all the other reasons, this is 
something that very aggressively, if not and covertly probably, 
has to be looked at which is why human rights investigators--I 
mean, I would hope there would be no takeaway for the Egyptian 
government and somehow our government in saying it has not been 
substantiated.
    I believe that the evidence is compelling. It awaits 
further investigation. But we need to be, I think, as 
aggressive as all get out. I mean, you know, anyone who--any 
daughter, any young woman to be abducted and forced into what I 
really believe is sexual slavery and to lose her faith and her 
life and to be forcibly married through some level and degree 
of coercion is among the worst human rights abuses I can 
possibly think of.
    So I would hope the takeaway would be to deploy our Foreign 
Service or human rights officers and to do a major study on 
this, to initiate something that is--that leaves no stone 
unturned. And we need to bring this up in every possible forum 
with the SCAF and every other official in Egypt.
    Sec. Posner. Congressman, we will--I share the concern. We 
will--I will make sure--I will redouble our efforts with our 
embassy to make sure they are pursuing this subject in the way 
that you suggest. It would also help us if there are particular 
cases that come to your attention. That makes it easier for us 
to pursue this in a more concrete way.
    Mr. Pitts. Yeah, I thank you for that. I know that is a 
desire. But you have to also keep in mind you don't want to 
jeopardize the lives, the safety of the families, the women, 
you know, who are involved in this horrific practice. But thank 
you very much. We appreciate your willingness to look into 
that.
    Mr. Smith. Commissioner Pitts, thank you very much. And I'd 
just like to ask one final question, Mr. Secretary.
    Sec. Posner. Sure.
    Mr. Smith. And in a way, we've talked about it but just to 
get your reaction to this statement by Dr. Michele Dunne from 
the Rafik Hariri Center for the Middle East of the Atlantic 
Council. In her testimony, she'll say, the SCAF approach has 
been almost identical to that of the Mubarak era.
    That is, after each sectarian incident the authorities 
promise to investigate and prosecute crimes vigorously and to 
address the underlying causes of the incident such as 
discriminatory laws regarding the building and the alteration 
of places of worship. But as soon as public attention moves on, 
such efforts are either abandoned or long delayed, leaving the 
victims with a sense of injustice and the perpetrators with a 
sense of impunity, and sowing the seeds of further violence.
    In cases where military government or government officials 
are accused of complicity in violence or at least 
irresponsibility in dealing with it, the SCAF has staunchly 
resisted accountability. Is that a true statement or a false 
statement?
    Sec. Posner. Well, I think I would answer that by saying we 
are now at a critical moment following the October 9th 
violence. And what I've said here and what I think this hearing 
has helped us amplify is the need, one, for accountability. 
There are two investigations going on. It's important that you 
and we stay the course in monitoring the progress of those 
investigations.
    And the other piece is the government's stronger commitment 
to adopt a unified law of construction of new religious sites, 
repairs, et cetera and to amend the penal code in a way that 
fights discrimination in a more particular way. I want to leave 
this hearing with a the sense that these are priorities for the 
United States.
    I think it's great that you've had this hearing. It helps 
draw attention to these issues. And there should be no doubt in 
anybody's mind that we are highly attentive to the need for 
accountability and for affirmative expressions by the 
government of their desire to end practices of discrimination.
    Mr. Smith. We're joined by Gus Bilirakis from Florida. Mr. 
Bilirakis, do you have any statements or comments you'd like to 
make?
    Mr. Bilirakis. I do have a statement, if that's all right?
    Mr. Smith. Absolutely.

HON. GUS BILIRAKIS (R-12), A MEMBER OF CONGRESS FROM THE STATE 
                           OF FLORIDA

    Mr. Bilirakis. Thank you. But anyway, I'm sorry that I'm 
late. I commend, of course, Chairman Smith and Chairman 
McGovern for holding this very important hearing. I've been 
heartsick over recent tragic events that have taken place in 
Egypt against the Coptic Christians. It is devastating what is 
happening to them under the current military regime in Egypt.
    The United States should contemplate defunding the Egyptian 
military until they can guarantee the religious freedom of all 
minority faiths, specifically the Coptic Christians. Christians 
are dying or being displaced as we speak. Perpetuating 
religious freedom for all minority religions, and especially 
Christians, in the Middle East will continue to be a top 
priority of mine.
    I look forward to meeting with your brothers and sisters 
here in faith later this week and I have some constituents 
coming up, Mr. Speaker, as well. But we need to do everything 
we can on behalf of religious freedom throughout the world, 
particularly in the Middle East. Thank you very much for giving 
me the opportunity.
    Thank you, Mr. Secretary. I appreciate you being here. 
Thank you for your testimony. We're having a little trouble 
with the microphone. I apologize. And then I'd like to 
introduce the next panel.
    Mr. Smith. Thank you very much.
    Mr. Bilirakis. OK, I'd like to introduce the second panel. 
Welcome. First, we have Dina Guirguis--I hope I pronounced that 
correctly. She's an Egyptian-American democracy activist and 
attorney and member of the Egyptian-American Rule of Law 
Association.
    Formerly, she was the Keston Family research fellow in The 
Washington Institute for Near East Policy's Project Fikra. She 
founded and was editor of a near real-time Arabic English blog 
called Fikra Forum, connecting Arab activists with U.S. 
policymakers on issues of regional political reform.
    Prior to joining the institute, Ms. Guirguis was the 
executive director of Voices for Democratic Egypt. She holds a 
J.D. from Vanderbilt University Law School. Welcome.
    Next, we have Samuel Tadros. Samuel is a research fellow 
with the Center for Religious Freedom aT the Hudson Institute. 
Before joining Hudson in 2011, Mr. Tadros was a senior partner 
at the Egyptian Union of Liberal Youth, an organization that 
aims to spread the ideas of classical liberalism in Egypt.
    He previously interned at the American Enterprise Institute 
and worked as a consultant for both the Hudson Institute on 
moderate Islamic thinkers and the Heritage Foundation on 
religious freedom in Egypt. He holds a master's degree from 
Georgetown University.
    Next, we have Michele Dunne. She is the director of the 
Atlantic Council Rafik--I don't know if I'm pronouncing this 
right--but Rafik Hariri Center for the Middle East. Dr. Dunne 
has served in the White House on the National Security Council 
staff, on the State Department's policy planning staff and its 
bureau of intelligence and research and was a diplomat in Cairo 
and Jerusalem.
    Prior to joining the Atlantic Council, she was a senior 
associate at the Carnegie Endowment for International Peace 
where she edited the Arab Reform Bulletin and carried out 
research on Arab politics and U.S. policies. She holds a 
doctorate in Arabic language and linguistics from Georgetown 
University. Welcome.
    And now we'll begin the testimony. Ms. Guirguis, you're 
recognized for five minutes. Thank you.

    DINA GUIRGUIS, EGYPTIAN AMERICAN RULE OF LAW ASSOCIATION

    Ms. Guirguis. Thank you. Good afternoon. Can you hear me? 
Can you hear me now? Great. Good afternoon and thank you to 
Chairman Smith for organizing this timely hearing. Thank you, 
Congressman Bilirakis. I'm especially pleased to have the 
opportunity to give testimony on Egypt's not only continuing, 
but growing, sectarian problem. I would even characterize it as 
a crisis at this point.
    To begin with: If I die, take me to Tahrir. These were the 
last words uttered by Mina Daniel, a young man in Maspero who 
eventually succumbed to a sniper bullet that entered his chest 
and exited through his lower back on October 9th, which has 
come to be known as ``Bloody Sunday.'' Mina's story is only the 
most recent example of the plight of Egypt's Christians, a 
tragic manifestation of Egypt's sectarian crisis, a matter in 
which I testified earlier this year in January.
    At that time, I began my testimony by quoting 22-year-old 
Miriam Fekry, who had posted a New Year's prayer for 2011 on 
her Facebook page, just hours before she was killed in a 
heinous attack on the Two Saints Church in Alexandria on New 
Year's eve which left at least 21 people dead.
    Then, I stated that Miriam's hopes, and ultimate fate, and 
now joining her, Mina Daniel's, even after Egypt's promising 
revolution, so tragically and poignantly illustrated the plight 
of the Coptic people, Egypt's native Christians, who represent 
10 to 15 percent of Egypt's 83 million people. I stated that 
while the Copts are the Middle East's largest Christian 
minority, they have faced an alarming escalation of violence as 
state protection has dwindled.
    I explained that for at least three decades, we, the Copts, 
have been offered an authoritarian compact of sorts. The Copts, 
as all Egyptians, were to live under a draconian emergency law 
suspending basic constitutional protections, in exchange for 
the delivery of stability and protection from terrorism.
    In those three decades, however, Egypt failed to make 
adequate progress on key developmental indicators, and Egypt's 
human rights record fared no better. Egypt's record on 
religious freedom went from bad to worse, placing it on the 
U.S. Commission on International Religious Freedom's watch list 
since 2002.
    After Egypt's revolution, the Commission recommended, for 
the first time, the further downgrade of Egypt's status, 
designating Egypt as a, quote, ``country of particular 
concern,'' or, for the CPC, quote, ``engaging in and tolerating 
egregious violations of freedom of religion or belief.''
    While religious freedom conditions in Egypt had been 
deteriorating during the last years of the Mubarak regime, the 
Commission stated, ``since Mubarak's ouster on February 11th, 
conditions have further deteriorated,'' end quote. In the 
Commission's view, this deterioration has warranted Egypt's 
ranking alongside China, Iran and Afghanistan.
    I last testified on Egypt's sectarian problem on January 
20th, only five days before the Egyptian revolution broke out. 
Back then, I described the authoritarian pact offered by the 
Mubarak regime as an illusory Faustian bargain. I argued the 
real answer to Egypt's sectarian crisis is progress toward a 
democratic state that respects human rights, applies the rule 
of law and extends equal constitutional protections to all 
citizens.
    I also noted that the Egyptian regime will avoid doing so 
at all costs. But we soon learned that Egyptians' frustration 
with decades of tyranny could not be indefinitely contained, 
and on January 25th, Egyptians of all stripes took to the 
streets to demonstrate precisely that.
    Somewhat cautiously, Christians regarded the revolution as 
a potential turning point and joined their fellow Muslim 
citizens in demanding fundamental change which they hoped would 
entail a new Egypt based on principles of equal citizenship, 
rule of law and individual freedoms. Instead, Egypt's current 
trajectory highlights not just substantial challenges to 
democratic transition, but the absence of political will from 
the current military regime to affect that transformation.
    In the process, Egypt's vulnerable groups, including the 
Copts, women and others, are more susceptible than ever to 
unprecedented violence and insecurity. In 2011 alone, Copts 
have been the target of 33 sectarian attacks, 12 of which 
involved an attack on a church. The combined casualties, even 
before the latest Maspero massacre, include 72 dead, as well as 
a substantial number of Christian homes, property and churches 
destroyed.
    With the Maspero massacre, the death toll rises to 97, and 
the number of those injured exceeds 400. Compared to 2010, 
these statistics represent more than a six-fold increase in 
Christian casualties in 2011.
    While some may blame the revolution for this serious 
escalation and praise the relative stability of the Mubarak 
days, I submit that the same societal ills, and more 
significantly the insidious state role in inciting sectarian 
violence, plague Egypt more than ever today.
    And that responsibility lies in no small measure squarely 
at the foot of the military dictatorship, represented by the 
Supreme Council of the Armed Forces, or SCAF, which has adopted 
the old authoritarian tactics while proclaiming itself, quote, 
``the revolutionary government.''
    For decades, the regime encouraged and capitalized on the 
growth of a culture of discrimination against religious 
minorities, and eventually sectarian crimes became crimes of 
impunity. We've already heard about that from Assistant 
Secretary Posner. Substituting the extension of the rule of law 
and equal protection, the state always insisted on, quote, 
``reconciliation sessions,'' where victims and perpetrators 
were coerced into extrajudicial settlements by the state 
security apparatus.
    In March of 2011, after Mubarak's ouster, when a Christian 
man had his ear severed by hardline Islamists known as Salafis 
in Upper Egypt, SCAF very powerfully conveyed the message of 
impunity by forcing the victim, that man, not to bring legal 
charges and failing to investigate or bring the perpetrators to 
justice.
    Perceiving the continuation of the status quo, this and 
similar incidents strengthened extremists' convictions that not 
only would the state tolerate blatant persecution of Christians 
and minorities, but it would do so with a nod and wink for its 
own interests, much like the days of the Mubarak era.
    Capitalizing on an environment of police absence from 
Egyptian streets following the Egyptian revolution--a massive 
security failure on the interim government's part which itself 
requires investigation and accountability--the Salafis--
hardline Islamists--once again lashed out at Christians in May, 
when they accused the Coptic church of holding alleged 
Christian converts to Islam against their will.
    Incitement by the Salafis in a poor, crowded neighborhood 
of Cairo resulted in an all-out war between Muslims and 
Christians which lasted for hours, with absolutely no police or 
military intervention, leaving 12 dead and two churches burnt 
to the ground at the end of the day.
    The response of SCAF to the incident was to send in a 
Salafi preacher known as Mohamed Hassan to the neighborhood to 
pacify the situation. This preacher has long been known for his 
incitement against Christians and calls for their second-class 
citizenship. He is also the same man that was granted a podium 
and allowed by the military regime to preach from Tahrir Square 
in the weeks following Mubarak's ouster, where he was given 
free rein to express hate speech.
    I refer you specifically to this example because I think 
Chairman Smith had asked Assistant Secretary Posner whether the 
government was in any way involved in provoking sectarian 
incidents. And these are some very minor examples and examples 
abound.
    While the churches were rebuilt, no one was held to account 
for the day's heinous violence, and when interviewed about this 
in the independent media, SCAF General Hassan El-Reweiny stated 
that it was, quote, ``preposterous'' to demand further action 
on the matter, including an investigation and arrests, since 
the churches were, after all, rebuilt.
    Once again, taking their cue from the SCAF's Mubaracist 
treatment of Egypt's vicious sectarianism, extremist Muslim 
youths in an Upper Egyptian town called Edfu took it upon 
themselves in September to destroy a church because it 
allegedly lacked the necessary permits, even though the church 
was an ancient one and had been operating for years. Rather 
than hold the youth to account, the region's governor praised 
them.
    SCAF subsequently refused an independent commission's 
recommendation that the governor be removed. With these 
successive tragedies in mind and years of societal intolerance, 
institutionalized discrimination and state complicity and 
incitement continuing with the SCAF's blessing, Christians took 
peacefully to the streets on October 9th, as they had alongside 
other Egyptians during the 18-day uprising, to protest the 
military regime's denial of basic civil liberties.
    Muslim activists and sympathizers joined them in their 
call. They were, as we all know now, met with disproportional 
violence, culminating in live shootings and the crushing of 
unarmed civilians by armored personnel carriers, or APCs.
    Meanwhile, the corpses of civilians, most of whom were 
Christian, were being taken to hospitals, while Egyptian state 
television misrepresented the facts, stating that, quote, 
``Coptic gangs,'' had killed three soldiers and were attacking 
the military in a manner, quote, ``not even the Israelis would 
dare,'' end quote, even going so far as to exhort, quote, 
``honorable Egyptians'' to come to the defense of their 
military against these elements.
    This incitement directly led to vigilante acts--this 
incitement directly led to vigilante acts of sectarian violence 
in Cairo's streets, where some Muslims sought out Christians--
sought out and targeted Christians for retribution and beatings 
or worse.
    Unsurprisingly but no less tragically, the SCAF's ensuing 
press conference addressing the tragedy blamed the victims and 
exhorted Egyptians to, quote, ``put themselves in the place of 
the soldier driving the armored--the armored carrier, who was 
understandably confused and panicked.''
    Adding insult to injury, the SCAF praised the role of 
Egyptian state TV and when asked about the names of the alleged 
military casualties, refused to release them for, quote, 
``security reasons.'' Again, when we're talking about 
provocation of the state, this is a very, very blatant example. 
Egypt state TV does not act independently of the government.
    Thus, in the aftermath of the revolution, the state itself 
has continued institutionalized discrimination and encouraged 
the growth of a culture of sectarianism and impunity to act on 
that sectarianism. During the last days of the Mubarak era, a 
Cairo-based human rights organization had described Egypt as a, 
quote, ``police state infused increasingly with theocratic 
elements.''
    I would submit that if you substitute the words ``police 
state'' with ``military state,'' this would be an accurate 
description of the state of things today. The military regime 
continues to count on divide and conquer tactics to consolidate 
its power.
    It continues to scapegoat the Copts to defect from its own 
governance failures. It continues to sow instability and 
simultaneously present itself as the sole solution to that 
instability, justifying along the way the continuation or 
institution of new repressive practices and laws.
    One need only give a cursory look at SCAF's history since 
its assumption of power. As the chairman quoted, over 12,000 
civilians have been tried in military tribunals that do not 
meet minimum standards of due process.
    Female protesters have been subjected to degrading 
virginity tests. The notorious emergency law which Egyptians 
were ruled by for three decades and were looking forward its 
removal, as soon as Mubarak left, was extended and numerous 
laws restricting freedom of assembly and even criminalizing 
criticism of the military have been opaquely passed and 
enforced in draconian fashion.
    Local rights groups are already decrying these abuses and 
more, including the SCAF's pre-election conduct which observers 
accurately note portends substantial fraud in upcoming 
elections where Islamists are expected to win a substantial 
parliamentary presence.
    This parliament, according to the SCAF's transition plan, 
will be responsible for the drafting of Egypt's new 
constitution, raising doubts about whether such a document will 
embody the aspirations of Egyptians, as expressed through their 
revolution, which rejected notions of both autocracy and 
theocracy but rather expressed a desire for a civil, meaning 
nonmilitary and nonreligious, state.
    Attempts by the SCAF to issue, quote, ``guiding 
principles'' for the constitution are little comfort. While the 
U.S. government may be banking on SCAF to turn Egypt into a 
pre-Erdogan Turkish model, what is actually unfolding is more 
analogous to models such as the Pakistani one, entailing 
greater collusion between military authorities and Islamists at 
the expense of all other political forces. This is clearly a 
dangerous situation.
    Avoiding this outcome requires that the U.S. not fall into 
the trap it previously did with Mubarak, placing as it did all 
its bets on the authoritarian partner and a police state, which 
is what we have today.
    This means that the U.S. must insist that its support 
during and for Egypt's transition be contingent on a prompt and 
genuine democratic transition to a civilian authority which 
represents the aspirations of all Egyptians and guarantees the 
equal rights of all, starting with the immediate cessation of 
sectarian incitement and elimination of all forms of 
discrimination.
    And including, but not limited to, immediate security 
sector reform entailing the prompt return of police to the 
streets, the conduct of free and fair and monitored elections, 
an inclusive and transparent constitutional drafting process, 
the elimination of laws that repress basic rights and the 
expansion of the political space to allow a greater role for 
civil society, nonreligious political parties and ultimately a 
free civilian presidential race which represents a true handoff 
of power from the military.
    Egypt's civilian president must then go about undoing 
decades of the disease of pernicious sectarianism which has 
infiltrated society through undertaking substantial legal, 
institutional, educational and media reform, all vast tasks 
which only a person entrusted and vested with the faith of 
Egyptians and the interests of Egypt, and not the interests of 
a few privileged generals, could assume.
    We owe it to those who sacrificed to herald a new era of 
freedom in the Middle East. We owe it to a young Mina Daniel, 
who while anticipating being killed by Mubarak's police forces 
while camped out in Tahrir Square during Egypt's courageous 18-
day uprising, survived then, only to be massacred a few months 
later at the hands of Mubarak's successors, who represent more 
of the same. Thank you.
    Mr. Smith. Ms. Guirguis, thank you very much for your very 
powerful testimony and for previous testimonies you've provided 
to this Commission. I'd like to yield to Mr. Aderholt, 
distinguished member of this Commission, for any comments he 
might have.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you. I came in late so I apologize for 
my tardiness. But the--you know, the SCAF is certainly 
disconcerting about a lot of the reports that we've heard. But 
I guess my question would be just, in your opinion do you think 
that they have deliberately provoked confrontation with Coptic 
Christians, basically going back to that date of October 9th?
    Ms. Guirguis. This question is directed at me, I assume? 
OK, just didn't--the specific events in terms of who started 
shooting when and where are still being parsed out. And I 
suspect that will remain unclear for some time given that the 
military has undertaken to investigate itself whereas it is the 
accused party in all of this, which truly undermines the 
independence of any such investigation.
    What is clear, however, is one thing, which is the 
incitement of the state or official TV on that day. I, as most 
Egyptians living abroad, was glued to Egyptian TV on that day 
and following the independent media as well. And the vast 
differences in reporting were quite stunning. As I stated 
before, official Egyptian TV can never act independently, would 
certainly never release numbers of military causalities and 
actually name an aggressor party without direct orders from the 
SCAF.
    In fact, after the incident when there was a lot of 
criticism regarding the conduct of the official media in 
covering the massacre, a group of anchors that were working for 
official TV resigned in protest. And they explicitly in their 
statement stated that they had received explicit orders from 
the SCAF in terms of what to report and how to report that 
incident.
    And as I mentioned, the reporting led to direct violence. 
And as a lawyer, I can tell you that this rises to the level of 
criminal incitement, which is--should be punishable by law. So 
clearly in that instance, the instance of the incitement of the 
official media, the SCAF can be the only responsible party.
    Mr. Aderholt. OK, thank you. Thank you, Mr. Chairman. And I 
may have some more questions after the rest of the testimony. 
Thank you.
    Mr. Smith. Mr. Aderholt, thank you so very much. I'd like 
to now recognize for purposes of receiving his testimony, 
Samuel Tadros, research fellow, Hudson Institute Center for 
Religious Freedom. Please proceed as you would like.

 SAMUEL TADROS, RESEARCH FELLOW, CENTER FOR RELIGIOUS FREEDOM, 
                        HUDSON INSTITUTE

    Mr. Tadros. Thank you, Mr. Chairman. Thank you for holding 
this timely and important hearing and for inviting me to 
testify today on the plight of Egypt's Christians and what it 
signifies for the prospects of a democratic transition in 
Egypt.
    The title of today's hearing suggests a correlation and a 
linkage between religious freedom, or more precisely the lack 
thereof, and democracy and the prospects of a democratic Egypt. 
Unfortunately, for many policymakers, this linkage has been 
absent. The modern debasement of the concept of a free society 
to essentially mean the holding of elections has led to people 
ignoring the religious freedom as a foundation for a truly free 
society.
    The recent massacre of Copts while significant in terms of 
the number of people that were killed has to be viewed as part 
of an ongoing pattern that has taken its effect for many years. 
That pattern is a continuation of events and attacks that had 
been conducted during the Mubarak regime and before that and 
continued after the revolution. The three main parties that 
influence and take part in this pattern of discrimination are 
the Islamists, the Egyptian government and the general 
population.
    Instead of naming the specific incidents that my colleague 
has mentioned, I think it's important to look at how those 
three elements work together to create this culture of 
intolerance and attacks on Christians. The first party in that 
regard, the Islamists, have conducted numerous attacks on 
Christians. We've seen a number of those attacks, most recently 
before the revolution, the Alexandria church bombing on New 
Year's Eve.
    The state, for its part, has a number of very 
discriminatory laws against Christians, limiting the number of 
Christians in government service and putting restrictions on 
the building of churches.
    On the other hand, the government also participates in 
encouraging this culture through its impunity that it provides 
to the people conducting the attacks. The undersecretary 
mentioned the latest incident where someone was, for the first 
time, punished for one of those incidents in the Nag Hammadi 
attack.
    Unfortunately, this is the first time that such action is 
taken. We've seen a long number--a long list of attacks where 
no one has ever been punished for them, creating the impression 
that attacking Christians was unpunishable and encouraged.
    The third element, and the most problematic for the future 
of Christians in Egypt, is the general intolerance amongst 
their Muslim countrymen. This increase in number of attacks by 
ordinary Muslims encouraged at certain moments by Islamists, 
whether the Salafis or others, or driven by their own feelings 
of--or their opinions about Copts, this number of attacks has 
been very problematic.
    If we can think that the government can be stopped or 
restrained by certain actions, that the U.S. can take or 
pressure applied, if we can think that the Islamists can be 
contained somehow, it is the fact of being attacked by one's 
neighbors that is very problematic for the future of Christians 
in the Middle East.
    As Egyptians took to the streets in January and February, 
there were huge hopes that this was about to change. Powerful 
images of Christians and Muslims praying together and 
protesting together in Tahrir Square led to this belief that 
democracy would bring with it religious freedom. Unfortunately, 
reality has started to hit very soon.
    We've seen a continuation and an increase in--substantial 
increase in the number of attacks and the continuation of those 
patterns that we had witnessed before the revolution. The 
Islamists, now emboldened by the complete lack of control with 
the absence of the state security, have now started to take 
more drastic attacks against the Copts, whether in terms of 
attacks on specific Coptic churches or attacks generally in 
their TV channels on Copts and inciting people to act against 
them.
    The government, for its part, has not taken any action to 
stop this and has not punished anyone for those attacks. Again, 
as was mentioned, while the government--the Supreme Council of 
the Armed Forces--has built that one church that was burned in 
Otabia [ph] to the south of Cairo, they have not punished 
anyone for that specific attack.
    They have also not, until this moment, although the trial 
has been ongoing, offered any speedy trial for the people that 
have conducted the Imbaba attacks. As was mentioned also, they 
have continued to hold this pattern of reconciliation meetings 
whereby Christians and Muslims are expected to kiss each other 
and that would be the end of the affair.
    Those reconciliation councils have encouraged again this 
feeling that the local Muslim population can then put its 
demands on its Christian neighbors. The last element is that 
ongoing sectarian increase or the intolerance increase among 
the general Muslim population. We've seen a number of incidents 
where Christian girls are required to wear the hijab by 
government-appointed headmasters in schools.
    It was mentioned by the distinguished member before, during 
the opening remarks, the very disturbing incident of Ayman 
Nabil Labib, a 17-year-old kid--student in the school in Egypt, 
being killed by his very own colleagues and students in his 
classroom. The increased level of attacks by the ordinary 
Muslim population is the most alarming factor for the future.
    Again, governments can be restrained and pressured. 
Islamists can be contained. This level of intolerance is the 
most drastic element in the whole process. Those--we also see a 
continuation in terms of the government arresting a number of 
Christians and holding them as a bargaining chip with the 
church leadership where the pope and the various bishops are 
pressured to agree to the government's lack of action in 
exchange for getting their members out of the Egyptian jails.
    This pattern of arresting a number of Christians--we've 
seen it again with the Maspero incident, with around 25 
Christians arrested and that remain in jail as we speak today. 
This level has--this increased level has raised the question 
for Christians, not whether Egypt that might be democratic in 
its future or might not, but whether Egypt will be a place for 
its Christian minority.
    Like their Jewish counterparts years ago, 60, 70 years ago, 
they are beginning to realize that their countries might be a 
place that is not welcoming for them anymore. Unfortunately, 
unlike the Jews who had a place to go to, these people do not. 
The facts of demography and geography pose limitations on any 
attempt to provide safe havens or any other such notions.
    The remaining prospect of immigration is problematic in and 
of itself. While we've seen waves of immigration before of 
Iraqi Christians and perhaps in the future Syrian ones, the 
numbers that are involved in Egypt are much larger. Simply put, 
neither the West nor anywhere in the region is a good place for 
8 to 10 million refugees.
    This, again, creates the problem that while the richest 
elements of the Coptic community might be willing and capable 
of leaving the country, the poorest ones, the ones that face 
daily discrimination in their lives, will not find a place to 
go and will be living under this, what is becoming a very, very 
cold and long winter.
    For those that are concerned with Egypt's future, it is 
also becoming very clear that elections will not provide a 
solution to religious freedom. I do not have a crystal ball but 
I am willing to predict that the Muslim Brotherhood will win a 
majority in the next Egyptian elections. This will change a 
culture of impunity into a culture of encouragement, whether by 
the Muslim Brotherhood or the more extremist Salafi groups.
    The prospects for the Christians in Egypt are becoming 
darker. Egypt remains a key ally and friend of the United 
States and cooperation between the two countries takes place on 
various issues, most importantly the military.
    However, the prospect of a democratic Egypt and one that is 
based on religious freedom is important to the U.S. national 
security and will have its effects on that cooperation with 
Egypt in the long-term. I have a number of policy 
recommendations or comments in that regard. I perhaps believe 
that might be better left to questions, or should I continue?
    Mr. Smith. Sure.
    Mr. Tadros. The first element that we should understand is 
punishment for those that have conducted those attacks. There 
has been a good development in that regard last week with the 
military judges announcing for the first time that there are 
military personnel that have been arrested and will be tried 
for the Maspero attack.
    This is the first time that the military actually 
acknowledges, even unofficially, that they did something wrong 
during that attack. An encouragement for that process to 
continue and for punishment to be provided for those 
responsible is something that the U.S. should work on.
    Secondly, we understand now that the Muslim Brotherhood 
will take a majority in the next parliament and the Christians 
will continue to be underrepresented. We must make sure that 
underrepresentation in terms of electoral votes does not result 
in underrepresentation in terms of the writing of the 
constitution.
    Making sure that the next Egyptian constitution will be one 
that protects religious freedom and provides equal citizenship 
for all of Egypt's people is something that we need to 
definitely work on.
    Thirdly, while the wrong electoral timetable that the SCAF 
has suggested, provides us with an understanding that they will 
remain involved in running, ruling and governing the country. 
With the collapse of the police force, it is likely that the 
army will continue to provide basic law and order services in 
Egypt for some time in the future.
    The U.S. military has built a tremendous cooperation with 
the military and the U.S. military provides trainings for the 
Egyptian army on a variety of issues including trainings on 
basic law and order which the U.S. has perfected in conflict 
zones--in various conflict zones. This should be something that 
the U.S. can help the army deal with better.
    Fourthly, while the U.S. Department of State and USAID and 
MEPI have provided a variety of funding to strengthen democracy 
in Egypt, there have been very disturbing reports of a lot of 
this money, or at least some, going to Islamist parties whose 
commitment to religious freedom is, to say the least, 
questionable.
    Making sure that religious freedom is one of the key 
elements whereby those seeking help, those groups and parties 
seeking help are recognized and judged upon is an important 
step.
    Lastly, this money is being provided in order to strengthen 
various groups looking for having a sounder or voice in their 
country's future. As a minority, the Copts are facing numerous 
challenging--challenges in organizing themselves.
    Whether any of that money provided by State goes 
specifically to minority groups to help them, like other 
Egyptians, to organize themselves and bring their voices to 
building their country's future is something that needs to be 
looked into. Again, thank you very much for organizing this 
session and inviting me to testify. Thank you.
    Mr. Smith. Mr. Tadros, thank you very much for your 
testimony, for your incisive analysis of the current, near-term 
and long-term situation and your policy recommendations, which 
will be most helpful going forward. Dr. Dunne, if you would 
proceed?

DR. MICHELE DUNNE, DIRECTOR, RAFIK HARIRI CENTER FOR THE MIDDLE 
                     EAST, ATLANTIC COUNCIL

    Dr. Dunne. Mr. Chairman, distinguished members, thank you 
for the honor of testifying before the Commission. As you noted 
in your opening statement, Mr. Chairman, it is quite 
disappointing that the unity between Muslims and Christians 
that we saw in Tahrir Square just earlier this year has 
deteriorated and sectarian tensions have escalated dangerously 
in the intervening months.
    But the violence is not, unfortunately, particularly 
surprising because it's expected in a post-revolutionary 
climate that the tensions and conflicts that were beneath the 
surface are going to emerge more openly. And these sectarian 
tensions--sectarian tensions have been present for decades.
    But it was noticeable for the last couple of years that 
they were--that they were rising and especially in the months 
leading up to the January revolution, the attack on the church 
in Alexandria at the beginning of January has been mentioned a 
number of times. And even leading up to that, there were a 
number of anti-Christian riots, particularly by Salafi Muslim 
groups that have become much more active in Egypt in the last 
couple of years.
    And I would suggest that the increasing activity of these 
Salafi groups is one of the reasons why we have seen these kind 
of tensions and anti-Christian violence on the rise.
    Now, these clear and disturbing trends that were apparent 
even before the revolution make it all the more difficult to 
understand why the Supreme Council of the Armed Forces, the 
SCAF, that was entrusted by Egyptians with the authority upon 
the forced resignation for former president Mubarak has failed 
to address sectarian violence in any effective manner.
    The SCAF's approach has been almost identical to that of 
the Mubarak era; that is, after each sectarian incident, the 
authorities promise to investigate and prosecute crimes 
vigorously and to address the underlying causes of the incident 
such as discriminatory laws.
    But as soon as public attention moves on, such efforts are 
either abandoned or long delayed, leaving the victims with a 
sense of injustice and the perpetrators with a sense of 
impunity and sowing the seeds of further violence.
    As has already been noted during this hearing, the 
investigations of several serious incidents of large-scale 
anti-Christian violence leading to the deaths of almost a 
hundred people and the injuries of hundreds more are ongoing. 
And they might well be inconclusive if we look at what has 
happened in previous instances going back even to the al-Kush 
massacre a decade ago.
    What typically happens in these events is that the 
investigations are botched, either deliberately or through 
negligence, and there is very little, if any, effective 
prosecution after the fact. And in the case where military or 
government officials are--I'm sorry--accused of complicity or 
at least irresponsibility, and also today we've discussed this 
October 9th incident in Maspero extensively.
    The SCAF has staunchly resisted accountability. I would 
note that the SCAF's seeming inability to carry out these 
investigations and prosecutions in an expeditious fashion 
contrast very much with their speed in prosecuting bloggers and 
others who are critical of the military.
    Also, I will skip through this but the transitional 
authority supervised by the SCAF also has been very slow to 
make the promised legal changes, especially these laws 
regarding the building and renovation of places of worship 
which over and over again for years and decades now have been 
at the root at some of the sectarian tensions.
    Now, anti-Christian violence is one of several serious 
Egyptian issues that the SCAF has shown itself to be unwilling 
or unable to deal with. Others include rising crime, lack of 
needed police reforms and a deteriorating economy. As a 
military organization, the SCAF is not equipped to address such 
issues. And it shouldn't be called upon to do so, particularly 
for a prolonged period.
    That's why it's essential that the SCAF agree to a clear, 
realistic timetable to turn over not only legislative but also 
executive authority to elected civilians. The problem right now 
is that the SCAF is trying to postpone the transfer of 
executive authority until it secures guarantees of its status 
post-elections.
    And the status the military is seeking is not simply a 
continuation of the extensive political influence and economic 
perquisites it enjoyed during the Mubarak era but actually more 
than that. The SCAF has sponsored a document of super-
constitutional principles that would give it the implicit right 
to intervene in politics and the explicit right to overrule 
legislation as well as freedom from civilian supervision or 
budgetary oversight.
    What this would produce, as Ms. Guirguis noted, is a 
political system similar to that of Pakistan where elected 
civilian institutions are relatively powerless while unelected 
and unaccountable military and intelligence services actually 
run the country.
    And as we know from Pakistan as well as from Egypt's own 
history and current situation, in that kind of a system, 
military and intelligence organizations often manipulate 
sectarian tensions and extremist tendencies within the country 
in order to serve narrow agendas.
    That would be a very unhappy outcome of the January 25th 
revolution for all Egyptians, including Egyptian Christians, 
and, I would also note, for the United States because the 
United States cannot escape partial responsibility for the 
actions of the SCAF due to the tens of billions of dollars in 
U.S. military assistance that it has provided over the decade 
and continues to provide now.
    The United States should stand unambiguously on the side of 
the development of a real democratic system in which the rights 
of all citizens, including the right to religious freedom, will 
be protected in a climate of free political competition and the 
rule of law. Only in the democratic system will difficult 
issues such as anti-Christian violence and discrimination be 
able to be addressed openly. This will not happen overnight.
    Building a strong Egyptian democracy will be a many-year 
project. But it would be a serious mistake to now create large 
new obstacles to real democratization by acquiescing to the 
expansion and formalization of military control out of fear 
that Islamists might gain a plurality or even a majority in the 
parliament which will be elected over the next few months.
    There are many uncertainties involved when freely elected 
civilian institutions have real power. But one thing we know 
for certain is that military rules--rulers will fail to protect 
all citizens and enforce laws without discrimination. Thank you 
very much.
    Mr. Smith. Dr. Dunne, thank you as well for your excellent 
testimony. Let me just begin the questioning. You know, Mr. 
Tadros, you mentioned in your testimony that the growing number 
of threats is no surprise. The Copts are questioning whether or 
not there's a future.
    And you said, isolated and ignored by the West, the Copts 
can only wonder today whether after 2,000 years the time has 
come for them to pack their belongings. If you could--and the 
other panelists--speak to the issue of being isolated and 
ignored by the West. Does that include the United States?
    Have we been--has there been a dereliction on our part, our 
duty to promote democracy and freedom there? Does that include 
the administration, the Obama administration, the U.S. House 
and Senate and the EU and others who at least in theory support 
democracy? I do believe that our intentions are right. But very 
often our intentions are not matched with deeds and with a 
seriousness about what the threat actually is.
    And your point that a ruler can be bought or constrained by 
international pressure but with the mob there are no 
constraints--we saw mob rule in history time and time again 
played out, and recently in the former Yugoslavia, where 
neighbor against neighbor committed unspeakable atrocities 
because--not just impunity but because a sense of hatred that 
was otherworldly took over.
    So I wonder if you might speak to that issue of being 
isolated and ignored by the West. How well are we doing? Are we 
being serious?
    Mr. Tadros. By isolated and ignored, I was referring to 
more of a historical story. The first is that Copts were 
historically isolated from Western Christendom by theological 
differences and were very skeptical about missionaries and what 
the West would offer them. The second is their experience under 
the British occupation was not a very pleasant one.
    Unlike the French and the Levant that favored religious 
minorities, the British in Egypt tried to undermine the Copts 
and exclude them from government service. Lord Cromer, the 
famous ruler of Egypt, was no friend to Copts and had very 
harsh opinions about them.
    This pattern of lack of a friend in the West as compared to 
the Maronite community in Lebanon, for example, has made the 
Copts very skeptical about any real offers of help or the 
willingness of any Western power to help them.
    As to the specific actions of the United States, as the 
statement from the president that he made after the Maspero 
attack, it's a very disturbing statement to say the least. The 
attitude of equating both the victim and the victimizer and 
asking both sides to show restraint is, again, very troubling. 
One wonders how Copts should show restraint. Restraint from 
dying perhaps? One fails to understand the logic behind such 
actions.
    The president in his Cairo speech mentioned the Copts and 
the importance of their plight. But we have not seen any action 
in that regard. Again, the very distributing of reports from 
Islamist groups and parties getting money from the U.S. State 
Department, through its policy of not looking at parties' 
ideologies but whether they are committed to nonviolence is 
very disturbing and undermines the positions of the Copts in 
the country.
    So if I am to judge this administration in terms of its 
interest and actions, I would view it completely as a failure. 
Thank you.
    Ms. Guirguis. Sir, I'd like to add to that. Just adding my 
voice, the statement indeed after the massacre from the White 
House was extremely disappointing. The very notion of equating 
victim with aggressor is an insult to unspeakable tragedy 
already.
    And I think that there has been a little too many U.S. 
concessions to the U.S.--to the Egyptian security solution for 
the Coptic problem which ruled the day during the Mubarak era 
and which continues. It is sort of this blackmailing 
relationship where as long as you stay out of our sensitive 
files, including our treatment of religious minorities, you 
will continue to gain our cooperation on strategic interests.
    And I think that that argument has held way too much sway 
for way too long. Egypt has its own interests in cooperating 
with the United States and they are compelling reasons. And 
there is no reason to think that Egypt will run to China 
tomorrow and turn away from the United States.
    One other comment that I have to make, major 
disappointment--SCAF delegations have been coming on a routine 
basis since February to visit Washington. They make their 
rounds in the Pentagon, on the Hill, at the White House. Only 
days after the latest Maspero massacre, there was a new SCAF 
delegation that came in town, mostly actually to protest the 
attempts at conditioning foreign assistance that the House and 
the Senate were attempting to undertake.
    Well, who was assisting them in their lobbying efforts? 
Well, it's very disappointing for us to discover that CENTCOM 
was a part of that lobbying team. I myself have spoken to 
Pentagon officials in the aftermath of the Maspero massacre and 
the statements that I heard were incredibly disappointing.
    I heard and was told directly that the military acted with 
restraint, that they were actually pleased that the outcome, 
you know, was as it was, that it could have been much worse and 
so certainly the military-to-military relationship I think is 
really skewing what the larger perspective on all of this 
should be and what this entails for U.S. longer term strategic 
interests, not just in cooperating with Egypt but in the region 
as a whole.
    Mr. Smith. Dr. Dunne?
    Dr. Dunne. I agree that there has been a tendency on the 
side of the U.S. administration to accept the SCAF's--the 
SCAF's narrative which is that, you know, we're just simple 
military men, we're doing our best, it's a difficult situation. 
And remember, it's us or the Islamists. That's your choice.
    And that of course is the--you know, is right out of the 
old Mubarak playbook. I think though that the actions of the 
SCAF recently in, this October 9th Maspero incident and their 
absolute failure to accept accountability for that, the super-
constitutional document that I mentioned, the harassment and 
persecution of nongovernmental organizations, especially those 
receiving assistance from the United States, have really begun 
to make people here wake up a little bit as to what the SCAF's 
real intentions might be.
    So I hope we will not continue to fall victim to this, you 
know, binary choice. It's either authoritarianism with all the 
ugliness that comes with that or Islamism.
    Mr. Smith. In questioning Michael Posner, the assistant 
secretary for democracy, human rights and labor, I asked him a 
series of questions about Michele Clark's testimony at our 
previous hearing.
    And he did indicate that he would take it back and 
hopefully robustly and very aggressively get the department to 
investigate forced marriages of Coptic Christian women and 
obviously the abductions that precede the forced marriage. Were 
you satisfied with his answers? Any of you--any of you want to 
comment on that?
    Mr. Tadros. On the specific issue, it's disturbing that 
those allegations have been there for a number of years. 
They've been reported without comments in the various State 
Department-issued religious freedom reports. So it's a bit 
surprising that if those have been there why didn't anyone 
investigate them before.
    The more disturbing elements perhaps in the narrative that 
is accepted from SCAF is this issue that the military and the 
Egyptian government will pass a new law governing the houses of 
worship. I'm not sure if people at State have read that law or 
not. But I have, and it in no way supports religious freedom. 
The law requires that an area of a minimum of 500 meters be 
available between any other religious building or mosque.
    I don't know if anyone has visited Cairo, but I doubt there 
is any 500 meters between any two mosques in Cairo. So the idea 
that this law will somehow help Christians, make it easier for 
them to build churches, is debatable to say in the least.
    Mr. Smith. Any other witnesses like to respond?
    Ms. Guirguis. No, I just--I do agree with that. I don't 
think it's a solution at all. I think the bottom line is that 
there continues to exist no political will to address the root 
causes of this problem.
    I think if the sectarian problem of Egypt--I think the 
solutions are there. everybody knows them. We've been talking 
about them and offering them for years now. They've been on the 
books collecting dust in the Egyptian parliament for years now.
    But I think if you deprive any authoritarian government of 
that card, of the card to manipulate society in that way, to be 
able to use the divide-and-conquer card, to be able to sow 
instability and create these explosive events and justify their 
own existence, I think they would be gone.
    And that's the most powerful--in my view, one of the most 
powerful sorts of evidentiary proofs there is of the intentions 
of the SCAF and what the SCAF actually represents.
    Mr. Smith. Other--yes, Dr. Dunne?
    Dr. Dunne. I have not seen Ms. Clark's testimony and I 
don't know anything about the specific cases that she raised 
there. I would say that having looked into some of these cases 
in the past--and I would say this is sometime in the past. This 
is, you know, 10 years ago or so when I was at the U.S. embassy 
in Cairo.
    What I found in some of these cases where I was able to 
find out what happened was that a member of one religious 
community had eloped with a member of another religious 
community. And this gets to the problem that religious 
conversion and intermarriage are completely unacceptable. And I 
believe they're unacceptable to both communities, to both the 
Muslim and the Christian communities in Egypt. It is true that 
certainly Egyptian law discriminates in favor of the Muslim in 
this case, that conversion to Islam is permitted and from Islam 
not so much.
    But I would say on the level of society, there is a deep 
issue here and Dina was just alluding to it, that somehow 
cannot be addressed openly in a situation in which you have 
authoritarian governments that are manipulating these tensions 
for political advantage.
    Mr. Smith. Is there anything else any of you would like to 
add before we conclude this hearing?
    Mr. Tadros. If I can add, going back to the assistant 
secretary's statement where he writes on page six: I want to 
make clear that most of these clashes have involved both Copts 
and Muslims and members of both communities have been the 
perpetrators and victims of the violence.
    I'm not sure if State Department has seen any evidence of 
Copts attacking Muslims. At least I am not aware of any such 
incident. So it's a very interesting statement to put, to say 
the least.
    Mr. Smith. Anything further? Thank you so much for your 
testimony. This will be part of an ongoing series of hearings 
I've planned in my subcommittee. It's called ``Africa, Global 
Health, Global Human Rights,'' sometime in probably January or 
February to hold another hearing. And it's my understanding 
that the Lantos Commission for human rights might be planning 
one as well. While I don't chair it, Frank Wolf does. I am a 
member of that and certainly will be at it.
    And I think now more than ever we need to bring maximum 
scrutiny and I hope for some very wise interventions on the 
part of the U.S. government and our European Union friends and 
everyone else who is concerned about religious persecution as 
well as democracy and good governance because there is a window 
of opportunity, it seems to me, and a window that is closing so 
fast and things, as you pointed out, Mr. Tadros, that could 
get--you know, it won't just be impunity.
    It will be--it'll encourage mob action. And in some cases, 
they may already be there. So I--and for the record, when a 
delegation from Egypt came through and visited members of the 
House foreign affairs committee, I did join in meeting with 
them and had with me a catalog of human rights abuses directed 
against Coptic Christians for which I got--you know, that's 
been fixed and that's OK, we're working on that, always some 
kind of that's always in the past.
    And I certainly was not convinced. And so I hope the wool 
is not being pulled over the eyes of the Congress or the 
administration. With that, the hearing is adjourned. 
[Applause.]
    [Whereupon, at 4 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to this, our second Helsinki Commission 
hearing on the volatile and dangerous situation facing the Coptic 
Christians in Egypt following the Arab Spring.
    The world watched with great hope and anticipation as events 
unfolded in Tahrir Square earlier this year. We saw Christians standing 
guard over Muslims during Friday prayers in the middle of the square. 
We saw Muslims standing guard over Christians as they celebrated mass 
in Tahrir.
    While I believe that many of those who came together to forge the 
revolution want to continue that solidarity as they support Egypt's 
political transition, sadly, there are those who do not. Indeed, the 
transition period has seen increasing violence against Coptic 
Christians. The current Egyptian government, controlled by the Supreme 
Council of the Armed Forces (SCAF), has not adequately responded to 
this violence, and as we have seen on video, has perpetrated violence 
against Coptic protestors.
    On Sunday, October 9, 2011, twenty-seven people were killed and 
more than 300 injured in Maspero when the Egyptian military attacked a 
peaceful group of Coptic Christians protesting the burning of a church 
in Aswan. The protesters were also demanding the removal of the 
governor of Aswan, who had justified the mob's destruction of the 
church by saying that it had been built without a permit.
    In what has been deemed the ``Massacre at Maspero,'' witnesses say 
the army fired on the demonstrators with live ammunition and plowed 
into the crowd with armored vehicles. Military officers raided and 
stopped the live broadcast of two independent news channels that had 
been covering the clashes. At the same time, State-run television and 
radio reported that the Coptic demonstrators had attacked the military 
and called for ``honorable citizens'' to ``defend the army against 
attack''-inciting violence against the Coptic minority.
    Amid widespread domestic and international outrage over the events, 
the White House issued a statement on October 10 saying that: ``The 
president is deeply concerned about the violence in Egypt that has led 
to a tragic loss of life . . . . Now is the time for restraint on all 
sides so that Egyptians can move forward together to forge a strong and 
united Egypt.''
    With all due respect, the President seems to have completely missed 
the point. This is not a situation of equal power and equal 
responsibility for violence. This was not a lawless gang clash on the 
street, or a mob marauding the streets in the absence of a government. 
The Coptic community was protesting the fact that the Egyptian 
government in Aswan failed to protect Coptic property and allowed a mob 
to burn down the Coptic place of worship.
    When Copts called on the military government to treat the Copts as 
equal citizens and protect their rights, the government itself turned 
on them with a massacre.
    How is this government any different from the Mubarak thug regime? 
Had this occurred under Mubarak, we would have called for his removal.
    This same government is investigating itself for the incident. And 
the assault on human rights continues.
    In fact, the military has arrested at least 28 people--mostly 
Copts--in connection with the clashes, including prominent blogger Alaa 
Abdel Fattah. These individuals are being hauled before military 
prosecutors.
    To date, despite multiple videos and eyewitness accounts showing 
the military's use of lethal violence against peaceful protestors, the 
Egyptian military has yet to take responsibility for its actions, or 
otherwise demonstrate that it will protect all Egyptians, including the 
Coptic minority that make up more than 10% of its population.
    According to press reports last week, a member of a government-
backed fact-finding committee said that the Egyptian army did not use 
live ammunition to disperse protestors during the October 9 incident.
    However, Hafez Abu Saeda, a senior figure in the government-
sponsored National Council for Human Rights which set up the committee, 
also said that an independent investigation was needed to establish the 
full facts and that some state institutions, including the army, did 
not cooperate fully with the committee. Rights activists, including the 
Arab Network for Human Rights Information and Human Rights Watch, have 
criticized the report for a lack of detail.
    Tragically, the Massacre at Maspero is not an isolated incident, 
but rather a continuation of the endemic discrimination against, and 
marginalization of, Coptic Christians in Egypt.
    According to the 2010 State Department International Religious 
Freedom Report for Egypt:
    ``The status of respect for religious freedom by the government 
remained poor, unchanged from the previous year. Christians and members 
of the Baha'i Faith, which the government does not recognize, face 
personal and collective discrimination, especially in government 
employment and their ability to build, renovate, and repair places of 
worship. The government failed to prosecute perpetrators of violence 
against Coptic Christians and again failed to redress laws--
particularly laws relating to church construction and renovation--and 
governmental practices, especially government hiring that discriminates 
against Christians, effectively allowing their discriminatory effects 
and their modeling effect on society to become further entrenched.''
    The US Commission on International Religious Freedom notes that, 
``In response to sectarian violence, Egyptian authorities typically 
conduct `reconciliation' sessions between Muslims and Christians as a 
means of resolving disputes. In some cases, authorities compel victims 
to abandon their claims to legal remedy. The failure to prosecute 
perpetrators fosters a climate of impunity.''
    A report by the Egyptian Initiative for Human Rights (EIPR) 
covering the period from January 2008 to January 2010 documented 53 
incidents of sectarian violence-about two incidents per month--that 
took place in 17 of Egypt's 29 governorates. Most of the attacks were 
by Muslims on Christians and Christian churches or property.
    Egypt will not reach its democratic goals through the oppression of 
its minority peoples; democracy does not come with an iron fist. 
Rather, democracy springs from the belief that all people are created 
equal and have the right to participate in their governance. A 
legitimate government is of the people, by the people, and for the 
people-including minorities. A legitimate government submits to the 
rule of law.
    The Egyptians demonstrated this belief in Tahrir Square, but seem 
to be losing their way-spinning backward into tyrannical abuses of 
power.
    If there is any hope for a democratic and peaceful Egypt, the Copts 
must be allowed to contribute actively to Egyptian society and to the 
transformation of their country without fearing for their lives.
    In order to further discuss this critical juncture in Egypt's 
history, we have with us today a distinguished panel of witnesses who 
will help us more fully understand the plight of the Coptic Christians 
and what their status portends for peaceful and democratic political 
transition in Egypt.
    Michael Posner has served as Assistant Secretary of State for the 
Bureau of Democracy, Human Rights and labor since September 2009. Prior 
to joining the State Department, Mr. Posner was the Executive Director 
and the President of Human Rights First. He played a key role in 
proposing and campaigning for the first U.S. law providing for 
political asylum, which became part of the Refugee Act of 1980. Mr. 
Posner also has been a prominent voice in support of fair, decent, and 
humane working conditions in factories throughout the global supply 
chain. Before joining Human Rights First, Mr. Posner was a lawyer in 
private practice in Chicago and also lectured at Yale Law School and at 
Columbia University Law School. He holds a J.D. from the University of 
California, Berkeley Law School and a B.A. with distinction and honors 
in history from the University of Michigan.
    Dina Guirguis is an Egyptian American democracy activist and 
attorney and member of the Egyptian American Rule of Law Association 
(EARLA). Formerly, she was the Keston family research fellow in The 
Washington Institute for Near East Policy's Project Fikra. She founded 
and was editor of a near real time Arabic-English blog called Fikra 
Forum connecting Arab activists with U.S. policymakers on issues of 
regional political reform. Prior to joining the Institute, Ms. Guirguis 
was the executive director of Voices for a Democratic Egypt. She has 
been active in the struggle for democracy and human rights in Egypt 
beginning with her work at the Ibn Khaldun Center for Development 
Studies in Cairo, where she remained until the center's closure by the 
Egyptian government in 2000. In the United States, Ms. Guirguis has 
practiced criminal and corporate law. She holds a J.D. from Vanderbilt 
University Law School and a B.A. from Wellesley College.
    Samuel Tadros is a Research Fellow with the Center for Religious 
Freedom a the Hudson Institute. Before joining Hudson in 2011, Mr. 
Tadros was a Senior Partner at the Egyptian Union of Liberal Youth, and 
organization that aims to spread the ideas of classical liberalism in 
Egypt. He previously interned at the American enterprise Institute and 
worked as a consultant for both the Hudson Institute on Moderate 
Islamic Thinkers and the Heritage Foundation on Religious Freedom in 
Egypt. In 2007 Mr. Tadros was chosen by the state Department in its 
first Leaders for Democracy Fellowship Program in collaboration with 
Syracuse University's Maxwell School. He holds an M.A. from Georgetown 
University and a BA from the American University in Cairo.
    Dr. Michele Dunne is Director of the Atlantic Council's Rafik 
Hariri Center for the Middle East. Dr. Dunne has served in the White 
House on the National Security Council staff, on the State Department's 
Policy Planning staff and in its Bureau of Intelligence and Research, 
and as a diplomat in Cairo and Jerusalem. Prior to joining the Atlantic 
Council, she was a senior associate at the Carnegie Endowment for 
International Peace, where she edited the Arab Reform Bulletin and 
carried out research on Arab politics and U.S. policies. She holds a 
doctorate in Arabic language and linguistics from Georgetown 
University, where she has served as a visiting professor of Arab 
Studies. She co-chairs the Working Group on Egypt, a bipartisan group 
of experts established in February 2010 to mobilize U.S. government 
attention to the forces of change in that country.
Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe
    I thank Chairman Smith for holding this important and timely 
hearing. As the exhilarating events of the Arab Spring move forward 
into the reality of day to day transitional governance, election 
planning and the challenges of creating participatory democracy, the 
principles that sparked the revolutions must not be forgotten. Respect 
for the rights of minorities and women, free speech and freedom of 
assembly are critical building blocks for open and accountable 
governance.
    We condemn the violence perpetrated on Coptic Christians during 
their peaceful march to Maspero last month. This was certainly not the 
first time Copts have experienced violence. The past year has seen 
increased attacks on Coptic churches, homes and businesses, and the 
people in them. The brutality of the October 9 attacks by the Egyptian 
army--the supposed ``protectors of the revolution''--is an outrage. 
Even more outrageous, and dangerous in my view, is the army's denial 
that they were involved in the killing spree and the current 
government's refusal to conduct an independent and transparent 
investigation of the events.
    I understand that most of the people who have been arrested thus 
far in connection with October 9 are Copts and that all will be brought 
before military courts. According to yesterday's Washington Post, 
Egypt's military has ordered that Alaa Abdel-Fattah, a well known 
blogger and leader from Tahrir Square, be held in custody for another 
fifteen days. Abdel-Fattah was arrested on October 30 after he refused 
to answer questions about his alleged role in the October 9 events. He 
has not been charged, denies the allegations against him, and refuses 
to speak with military prosecutors because he insists they should have 
no role in trying civilians. More than 12,000 Egyptians have been 
brought before military tribunals this year--evidence of the dangers of 
the Supreme Council of the Armed Forces' (SCAF) continuation of the 
decades old emergency law.
    Another dark cloud on the horizon of Egypt's political transition 
is the SCAF's increasing attacks on Egyptian civil society. The 
government has promoted stories in the state-run media accusing 
Egyptian NGOs of working on behalf of ``foreign agendas'' and began 
investigating them. The government's report on the investigation, 
published in September, declared 39 NGOs to be ``illegal,'' including 
many of Egypt's oldest and most respected human rights organizations 
such as the Cairo Institute for Human Rights Studies, the El-Nadeem 
Center for Rehabilitation of Victims of Torture, the Egyptian 
Initiative for Personal Rights, and the Hisham Mubarak Law Center.
    Substantial public doubt has emerged regarding the capacity of the 
SCAF to appropriately manage the political transition following the 
January 2011 revolution. The first elections of the post-Mubarak Egypt 
are scheduled for November 28. The military's brutal attack on Coptic 
Christians last month, its broadening imposition and extension of the 
emergency law, and attacks on Egyptian civil society challenges the 
notion that the SCAF is incorporating the diverse expectations of the 
Egyptian people. Egypt is a Mediterranean partner for Cooperation in 
the Organization for Security and Cooperation in Europe (OSCE) and is 
expected to aspire toward OSCE norms.
    In her recent keynote address at the National Democratic 
Institute's 2011 Democracy Awards Dinner, Secretary of State Hillary 
Rodham Clinton remarked. ``If-over time-the most powerful political 
force in Egypt remains a roomful of unelected officials, they will have 
planted the seeds for future unrest, and Egyptians will have missed a 
historic opportunity.''
    We stand in solidarity with the international community and the 
Egyptian people as we urge a return to the principles of tolerance and 
pluralism that inspired the movement in Tahrir square. The future of 
Egypt rests with a political transition that respects the fundamental 
freedoms and the rights of all Egyptians.
    I look forward to the testimony of our distinguished witnesses.
  Prepared Statement of Michael Posner, Assistant Secretary of State, 
 Bureau of Democracy, Human Rights, and Labor, U.S. Department of State
    Thank you, Mr. Chairman, for conducting this important hearing on 
the situation faced by Coptic Christian community in Egypt, and for 
inviting me to testify.
    As you know, this is a time of substantial transition in Egypt as 
Egyptians strive to move their country towards democracy. This is not 
an easy process and it will not happen overnight. Egypt is only 
starting on a path from the temporary stewardship of the Supreme 
Council of the Armed Forces (SCAF), through parliamentary elections 
that will begin in two weeks, then the process of drafting of a new 
constitution and finally presidential elections. As they move toward 
these milestones, millions of Egyptians hope to see the emergence of a 
democratic civilian government that respects the universal rights of 
all of its citizens.
    As part of this vision, it is vital that there be a place in the 
new Egypt for all citizens, including all religious minorities, of 
which the Coptic Christian community is the largest. President Obama 
and Secretary Clinton have made clear their deep concern about violence 
against Coptic Christians, most recently during the October 9 tragedy 
in front of the Egyptian radio and television building in the Maspiro 
area of Cairo. At least 25 people died and more than 300 were injured. 
We have urged the Egyptian government to investigate this violence, 
including allegations that the military and police used excessive force 
that was the cause of most of the demonstrator deaths. We also have 
urged that those responsible for these deaths and injuries be held 
accountable.
    While the focus of my testimony is on the situation of the Copts, I 
would like to point out that other religious minorities also suffer 
official discrimination. While non-Muslim religious minorities 
officially recognized by the government--namely Christians and the tiny 
Jewish community--generally worship without harassment, members of the 
Bahai Faith, which the government does not recognize, face personal and 
collective discrimination. The government also sometimes arrests, 
detains, and harasses Muslims such as Shia, Ahmadiya, and Quranist, 
converts from Islam to Christianity, and members of other religious 
groups, such as Jehovah's Witnesses and Mormons. The Government 
continues to refuse to recognize conversions of Muslims to Christianity 
or other religions, which constitutes a prohibition in practice.
    I would like to set this testimony on the Copts in a broader 
context. Last week Secretary Clinton gave an important policy address 
in which she outlined our overall policy on democratization in the 
Middle East and beyond. She described the US government's principled 
engagement in the Middle East. We support the aspirations of citizens 
to live in societies that guarantee freedom, including freedom of 
expression, assembly and religion. We also believe strongly in systems 
that allow citizens a say in how they are governed and that will 
provide economic opportunities for all. These are the demands that we 
heard in Tahrir Square, where Copts and Muslims joined hands to protest 
and to pray in the weeks leading up to the downfall of the Mubarak 
regime. We have heard similar demands echoing throughout the Middle 
East and even far beyond that region in the ensuing months.
    Secretary Clinton also has spoken out consistently about the 
importance of religious freedom and religious tolerance, both of which 
are fundamental to human dignity and peaceful transitions to democracy. 
Religious freedom is a human right, guaranteed by international human 
rights law. At the release of the State Department's report on 
International Religious Freedom in September, Secretary Clinton 
emphasized the role that religious freedom and tolerance play in 
building stable and harmonious societies. She said:

        ``Hatred and intolerance are destabilizing. When governments 
        crack down on religious expression, when politicians or public 
        figures try to use religion as a wedge issue, or when societies 
        fail to take steps to denounce religious bigotry and curb 
        discrimination based on religious identity, they embolden 
        extremists and fuel sectarian strife. And the reverse is also 
        true: When governments respect religious freedom, when they 
        work with civil society to promote mutual respect, or when they 
        prosecute acts of violence against members of religious 
        minorities, they can help turn down the temperature. They can 
        foster a public aversion to hateful speech without compromising 
        the right to free expression. And in doing so, they create a 
        climate of tolerance that helps make a country more stable, 
        more secure, and more prosperous.''

    This is the basis for our belief that in order to succeed and 
prosper, Egypt, and its neighbors, must protect the rights of all 
citizens and all minorities, including its Coptic population. The 
corollary is also true: successful democratic transitions are the best 
way to safeguard those rights.
    Mr. Chairman, the Copts in Egypt have faced discrimination for many 
years. Christians face personal and collective discrimination, 
especially in government employment and the ability to build, renovate, 
and repair places of worship.
    Although they represent about 10% of the population and play an 
important role in Egypt's economy, Copts have suffered from widespread 
discrimination and remain underrepresented in prominent positions in 
Egyptian politics and society.
    The headlines--and the trend lines--continue to tell a disturbing 
story.
    I was in Egypt just days after the January 2010 attack on the Nag 
Hammadi Church in Upper Egypt, when gunmen shot and killed seven people 
as worshippers were leaving a midnight Christmas mass. At that time, I 
called for an end to impunity for such crimes and full accountability 
for those who attacked this holy place. One suspect, Hamam al-Kamouny 
was tried under the emergency law in a state security court, convicted 
on January 16 and executed on October 10. The other two defendants, 
Qoraishi Abul Haggag and Hendawi El-Sayyed, were acquitted by the 
court, angering many Coptic activists. Yesterday, November 14, Egypt's 
official news agency announced that Abol-Haggag and El-Sayyed are to be 
retried on December 19 under the Higher Emergency State Security Court, 
for crimes including premeditated murder and terrorism with the use of 
force and violence. We applaud the pursuit of accountability in this 
case, although we would prefer that these types of crimes be dealt with 
in civilian courts with full due process of law.
    Almost exactly a year after the Nag Hammadi attack, on January 1, 
2011, a bomb exploded at the Coptic Orthodox Church of the Two Saints 
in Alexandria, killing 23 people and wounding around 100. There are no 
suspects in custody for that crime, although the Government of Egypt 
reports that its investigation is ongoing.
    These two incidents, and others like them, took place before the 
fall of President Mubarak on February 11. We have since received 
reports of an increase in sectarian violence and tensions, including at 
least 67 people killed in religious clashes--most of them Coptic 
Christians. This brings the total number of reported deaths this year 
to more than 90. There have been at least six recent major incidents of 
violence against Copts:

    <bullet>  On February 23, the Army used live ammunition, including 
rocket propelled grenades, against unarmed Copts during a land dispute 
at a monastery. A monk, one of the six shot, later died. To our 
knowledge, no one has been held accountable for these attacks.
    <bullet>  On March 4, in the village of Sol, a large group of 
Muslim villagers destroyed the Church of Saint Mina and St. George 
after the army failed to stop them. To our knowledge, there has been no 
investigation and no one has been charged despite videos of the 
perpetrators.
    <bullet>  On March 8, 13 people were killed when Muslims and Copts 
clashed in the Mukkatum area of Cairo. Some of the Copts had been 
protesting the slow government response to the destruction of the 
church in Sol. One Coptic bishop claimed that though news reports 
listed seven Christians and six Muslims. To our knowledge, there has 
been no investigation and no one has been charged in the deaths.
    <bullet>  On May 8 in Imbaba, a poor neighborhood of Cairo, two 
churches were attacked and one burned during sectarian riots. The 
clashes resulted in 23 deaths and 232 injuries. That month, the 
official media reported that the government referred 48 suspects to 
trial. Approximately half of these suspects have been arrested, 
including a prominent Salafist leader, while half remain at large. The 
High State Security Court in Giza has adjourned the trial until 
December 4, when it expects to hear testimony from the remaining 
witnesses.
    <bullet>  On September 30, in Merinab village in Edfu, Aswan 
governorate, an estimated crowd of 3,000 Muslims looted and burned the 
St. George Coptic Orthodox Church, in addition to some Copt-owned homes 
and businesses, following reported incitement by village imams. Local 
media reported that a Ministry of Justice fact-finding committee 
traveled to Aswan on October 12, in the aftermath of the Maspiro 
violence, to investigate the church burning. The status of this 
investigation is unclear.
    <bullet>  And finally, on October 9 in Cairo, violence erupted in 
front of the Egyptian television building known as Maspiro, at a 
demonstration by Copts protesting the government's failure to 
investigate the burning of the church in Merinab in Aswan governorate. 
At least twenty-five people were killed and more than 300 injured.

    On October 11, Secretary Clinton addressed the October 9 violence 
at Maspiro and called for an immediate, credible, and transparent 
investigation of all who were responsible for the violence, with full 
due process of law. The White House issued a statement urging Egyptians 
to move forward together to forge a strong and united Egypt and 
reaffirming our belief that the rights of minorities--including Copts--
must be respected, and that all people have the universal rights of 
peaceful protest and religious freedom.
    The government of Egypt has stated publicly that they are 
conducting two investigations. The Egyptian Armed Forces are reviewing 
the conduct of Military Police, who eyewitnesses and video evidence 
suggest ran over and shot at demonstrators. The Ministry of Justice has 
been tasked by the Egyptian Cabinet with a full investigation of the 
incident. Separately, military prosecutors are investigating about 30 
demonstrators, including one prominent blogger, who were detained 
during the violence. They are accused of inciting violence, stealing 
firearms, and attacking security forces. They will be tried in military 
courts.
    On November 2, a fact-finding committee established by the National 
Council for Human Rights issued an initial report on the Maspiro 
violence. (NCHR is a quasi-governmental watchdog body, but the 
committee was led by respected human rights advocates). The report 
found that the march by Copts and their Muslim allies began peacefully 
at Shubra and moved toward Maspiro in downtown Cairo. According to the 
report and several corroborating accounts, as the marchers approached 
Maspiro, they were attacked by civilians throwing rocks and chanting 
Muslim extremist slogans. According to the same sources, military 
police then confronted the marchers and attempted to keep them from 
reaching the building. The MPs used shields and batons, and fired 
blanks. Marchers began fighting back against the violent civilians and 
military police. The NCHR report acknowledged that 12 or more civilians 
were killed when they were run over by military vehicles. The committee 
said it could not determine who fired the bullets that killed at least 
seven demonstrators.
    During the height of the clashes, state TV anchor Rasha Magdy 
called on ``honorable Egyptians'' to defend the Army against ``attacks 
by violent demonstrators.'' Twenty-one prominent Egyptian human right 
organizations criticized the ``inflammatory role played by the official 
state media,'' charging that a ``direct link can be traced between the 
outright incitement against demonstrators by state media and the events 
at Maspiro.''
    On October 13, the head of Egypt's military justice system, Adel 
al-Morsi, said that the military would lead the official investigation 
into the events. According to Human Rights Watch and local media, the 
military has arrested approximately 30 individuals. The government has 
said it will try suspects in military courts, since the crimes involved 
attacks on military personnel and equipment.
    The Coptic community is concerned, as we are, about the severity 
and frequency of sectarian attacks against their community, and while 
they recognize that the government has nothing to do with most of these 
attacks, they are greatly concerned about the need to hold perpetrators 
accountable. I want to make clear that most of these clashes have 
involved both Copts and Muslims, and members of both communities have 
been the perpetrators and victims of the violence. It also is important 
to emphasize that many Muslims have stood up to defend members of the 
Coptic community against extremist violence.
    The United States Government condemns this sectarian violence and 
continues to urge the Government of Egypt to take all necessary and 
available measures to reduce these tensions.
    In raising our concerns about the Coptic community, we are also 
aware and very supportive of the positive steps the Egyptian government 
has taken on behalf of the Copts. On March 8, by order of the Prime 
Minister, Coptic priest Mitaus Wahba was released from prison where he 
was serving a five year sentence for officiating at a wedding of a 
Christian convert from Islam. On April 14, the SCAF fulfilled its 
commitment to rebuild a church in Sol that had been destroyed on March 
4 by mob violence. And as I noted earlier, the government also took 
steps in response to the May 8 Imbaba violence; in addition to re-
opening dozens of churches, the government is prosecuting 48 
individuals charged with murder, attempted murder, and a variety of 
other crimes. The trial is scheduled to resume on December 4.
    The government also has pledged to adopt a Unified Places of 
Worship Law, which would guarantee all faiths the ability to construct 
and maintain places of worship. The Cabinet sent the draft law to the 
military council in October. We urge the SCAF to endorse this provision 
as soon as possible. The Government of Egypt has promised to consider 
this measure for several years, including twice in the last five 
months. Numerous cases of sectarian violence in recent years have 
stemmed from disputes over church construction. The prompt adoption of 
this provision now would send a very strong signal of the government's 
commitment to protect religious freedom. It would recognize the right 
of all Egyptians to freely build places of worship they need to conduct 
religious activities. As the government reviews this proposal it should 
take into account the concerns expressed over earlier drafts that the 
suggested multi-stage process of applying for permits to construct and 
repair churches is too convoluted, cedes too much authority to 
governors to grant permits, and imposes onerous restrictions on the 
number and location of houses of worship.
    Finally, in the aftermath of the Maspiro violence, we welcome steps 
that are being taken by the Government of Egypt to reduce 
discrimination in the penal codes. On October 15, the SCAF issued a 
decree amending Egypt's penal code to prohibit discrimination on the 
basis of religion, gender, language, faith, or race. The decree also 
delineated prison sentences and specific fines for acts of 
discrimination, as well as failure to prevent discrimination. These 
included more severe penalties for government officials found to be 
complicit in discrimination.
    The new penal code provisions bolster the Egyptian constitution's 
ban on discrimination. Article 7 of the March 31, 2011, constitutional 
declaration states that ``all citizens are equal before the law. They 
have equal public rights and duties without discrimination on the 
grounds of race, ethnic origin, language, religion, or creed.'' We urge 
the government to enforce these and other anti-discrimination laws and 
hold violators accountable so that all minorities, including Copts, can 
enjoy equal protection.
    Like Egyptian Muslims, Egyptian Copts are concerned about their 
country's future and their own place in it. In addition to security 
from sectarian violence and equal treatment under the law, they want 
equal representation in parliament and a proportional voice on the 
committee that will draft Egypt's new constitution. Like moderate 
Egyptian Muslims, the vast majority of whom support religious freedom, 
Copts and other religious minorities consider themselves full partners 
in a new Egypt.
    As Secretary Clinton said last week, ``If--over time--the most 
powerful political force in Egypt remains a roomful of unelected 
officials, they will have planted the seeds for future unrest, and 
Egyptians will have missed a historic opportunity.'' The door to real 
democratic change is only beginning to open. We hope Egyptians will 
walk through it together to a more peaceful and prosperous future.
    Thank you.

                              ____________
                           Michael H. Posner
    Michael H. Posner was sworn in as Assistant Secretary of State for 
the Bureau of Democracy, Human Rights and Labor on September 23, 2009.
    Prior to joining State Department, Mr. Posner was the Executive 
Director and then President of Human Rights First. As its Executive 
Director he helped the organization earn a reputation for leadership in 
the areas of refugee protection, advancing a rights-based approach to 
national security, challenging crimes against humanity, and combating 
discrimination. He has been a frequent public commentator on these and 
other issues, and has testified dozens of times before the U.S. 
Congress. In January 2006, Mr. Posner stepped down as Executive 
Director to become the President of Human Rights First, a position he 
held until his appointment as Assistant Secretary.
    Mr. Posner played a key role in proposing and campaigning for the 
first U.S. law providing for political asylum, which became part of the 
Refugee Act of 1980. In 1998, he led the Human Rights First delegation 
to the Rome conference at which the statute of the International 
Criminal Court (ICC) was adopted.
    Mr. Posner also has been a prominent voice in support of fair, 
decent, and humane working conditions in factories throughout the 
global supply chain. As a member of the White House Apparel Industry 
Partnership Task Force, he helped found the Fair Labor Association 
(FLA), an organization that brings together corporations, local 
leaders, universities, and NGOs to promote corporate accountability for 
working conditions in the apparel industry. He also was involved in the 
development of the Global Network Initiative, a multi-stakeholder 
initiative aimed at promoting free expression and privacy rights on the 
internet.
    Before joining Human Rights First, Mr. Posner was a lawyer with 
Sonnenschein, Nath & Rosenthal in Chicago. He lectured at Yale Law 
School from 1981 to 1984, and again in 2009. He was a visiting lecturer 
at Columbia University Law School since 1984. A member of the 
California Bar and the Illinois Bar, he received his J.D. from the 
University of California, Berkeley Law School (Boalt Hall) in 1975, and 
a B.A. with distinction and honors in History from the University of 
Michigan in 1972.
  Prepared Statement of Dina Guirguis, Egyptian American Rule of Law 
                              Association
    Good afternoon. Thank you Mr. Chairman for organizing this timely 
hearing. I'm especially pleased to have the opportunity to give 
testimony on Egypt's not only continuing but growing sectarian problem. 
I would like to state that my testimony here today represents my 
individual views and not necessarily the views of any organization with 
which I'm affiliated, including the Egyptian American Rule of Law 
Association (EARLA).
    Last time I testified on Egypt's sectarian problem, specifically 
the plight of the Copts, Egypt's Christian population, back in January 
this year, I began my testimony by quoting 22 year old Mariam Fekry, 
who had posted a prayer for a wonderful new year in 2011 on her 
facebook page, just hours before she was killed in a heinous attack on 
the Saints Church in Alexandria, Egypt on New Year's eve which left 21 
dead. When I last testified, I stated that Mariam's hopes, and ultimate 
fate, so tragically and poignantly illustrate the plight of the Coptic 
people, Egypt's native Christians, who represent 10-15% of Egypt's 83 
million people. I stated that while the Copts are the Middle East's 
largest Christian minority, they have faced an alarming escalation of 
violence as state protection has dwindled.
    I explained that for at least three decades, we, the Copts, have 
been offered an authoritarian compact of sorts. The Copts, as all 
Egyptians, were to live under a draconian emergency law, namely martial 
law suspending basic constitutional protections, in exchange for the 
delivery of stability and protection from terrorism. In those three 
decades, however, Egypt failed to make adequate progress on key 
developmental indicators, and Egypt's human rights record fared no 
better: Freedom House consistently classified Egypt as ``not free,'' 
and Egypt's record on religious freedom went from bad to worse, placing 
it on the US Commission on International Religious Freedom's (USCIRF's) 
``watch list'' since 2002, for ``serious problems of discrimination, 
intolerance, and other human rights violations against members of 
religious minorities.'' After Egypt's revolution, the commission 
recommended, for the first time, the downgrading of Egypt's status, 
designating Egypt a ``country of particular concern,'' or CPC, for 
``engaging in and tolerating egregious violations of freedom of 
religion or belief. While religious freedom conditions in Egypt had 
been deteriorating during the last years of the Mubarak regime,'' 
USCIRF stated, ``since Mubarak's ouster on February 11, conditions have 
further deteriorated.'' In USCIRF's view, this deterioration has 
warranted Egypt's ranking alongside China, Iran, and Afghanistan.
    Last time I testified on Egypt's sectarian problem was January 20, 
only 5 days before the revolution broke out. Back then, I had described 
the ``authoritarian pact'' offered by the Mubarak regime as an illusory 
Faustian bargain, and instead stated that the real answer to Egypt's 
sectarian crisis is progress toward a democratic state that respects 
human rights, applies the rule of law and extends equal constitutional 
protections to all citizens. I also noted that the Egyptian regime will 
avoid doing so at all costs. But we soon learned that Egyptians' 
frustration with decades of tyranny would and could not be indefinitely 
contained, and on January 25, Egyptians of all stripes took to the 
streets to determinedly but nonetheless peacefully demonstrate that.
    Somewhat cautiously, Christians regarded the revolution as a 
potential positive turning point and joined their fellow Muslim 
citizens in demanding fundamental change which they hoped would entail 
a new Egypt based on principles of equal citizenship, rule of law, and 
individual freedoms. Instead, Egypt's current trajectory highlights not 
just substantial challenges to democratic transition, but the absence 
of political will from the current military de facto regime to affect 
that transformation. In the process, Egypt's vulnerable groups are more 
susceptible than ever to unprecedented violence and insecurity.
    In 2011 alone, Copts have been the target of 33 sectarian attacks, 
12 of which involved an attack on a church. The combined casualties, 
not counting the latest Maspero massacre, include 72 dead, as well as a 
substantial number of Christian homes, property, and churches 
destroyed. With the Maspero massacre, the death toll rises to 97, and 
the number of those injured exceeds 400. Compared to 2010, these 
statistics represent more than a 6 fold increase in Christian 
casualties in 2011.
    While it may be alluring to blame the revolution for this serious 
escalation and praise the relative stability of the Mubarak days, I 
submit that the same societal ills and perhaps more significantly the 
insidious state role in inciting sectarian violence plague Egypt more 
than ever today, and that responsibility lies in no small measure 
squarely at the foot of the military dictatorship, represented by the 
Supreme Council of the Armed Forces (SCAF) which has taken hold and 
adopted the old authoritarian tactics, while representing and 
proclaiming itself the ``revolutionary government.''
    For decades, the regime encouraged and capitalized on the growth of 
a culture of discrimination against religious minorities, and 
eventually sectarian crimes became crimes of impunity. Substituting the 
extension of the rule of law and equal protection of the law, the state 
always insisted on ``reconciliation sessions'' where victims and 
perpetrators were brought together and coerced into extrajudicial 
settlements by the state security apparatus. In March of 2011, when a 
Christian man had his ear severed by hardline Islamists known as 
Salafis in Upper Egypt, SCAF very powerfully continued the message of 
impunity by forcing the victim not to bring legal charges and failing 
to investigate or bring the perpetrators to justice. Perceiving the 
continuation of the status quo, this and similar incidents strengthened 
extremists' convictions that not only would the state tolerate blatant 
persecution of Christians and minorities, but it would do so with a nod 
and a wink for its own interests, much like the days of the Mubarak 
era. Capitalizing on an environment of literal police absence from 
Egyptian streets following the revolution--a massive security failure 
on the interim government's part which itself requires investigation 
and accountability--the Salafis once again lashed out at Christians in 
May, when they accused the Coptic church of holding alleged Christian 
converts to Islam against their will. Incitement by the Salafis in a 
poor, crowded neighborhood of Cairo resulted in an all out war between 
Muslims and Christians which lasted for hours, without police or 
military intervention, leaving 12 dead and 2 churches burnt to the 
ground.
    The response of SCAF to the incident was to send in a Salafi 
preacher known as Mohamed Hassan to the neighborhood to ``pacify the 
situation.'' This ``preacher'' has long been known for his incitement 
against Christians and calls for their second class citizenship. He is 
also the same man that was granted a podium and allowed, by the 
military regime, to preach from Tahrir Square in the weeks following 
Mubarak's ouster, where he was given free rein to express hate speech.
    While the churches were rebuilt, no one was held to account for the 
day's heinous violence, and when interviewed about this in the 
independent media, SCAF General Hassan El-Reweiny stated that it was 
``preposterous'' to demand further action on the matter, including an 
investigation and arrests, since the churches were rebuilt.
    Once again, taking their cue from the SCAF's eerily Mubarakist 
treatment of Egypt's vicious sectarianism, extremist Muslim youths in 
an Upper Egyptian town called Edfu took it upon themselves in September 
to destroy a church because it allegedly ``lacked the necessary 
permits,'' even though the church was an ancient one that had been 
operating for years. Rather than hold to account the youths who lacked 
any authority to act on any such claim, the region's governor instead 
praised the youths who committed this act, and then SCAF refused to 
fire the governor.
    With all these successive tragedies in mind, and compounded by 
years of societal intolerance, institutionalized discrimination, and 
state complicity and incitement, which was clearly continuing with the 
SCAF's blessing, Christians took peacefully to the streets on October 
9, as they had alongside other Egyptians during the 18 day uprising, to 
protest the current military regime and to demand basic civil 
liberties. Muslim activists and sympathizers joined them in their call. 
They were, as most of us now know and as is and was documented widely 
across international media, met with disproportional violence, 
culminating in live shootings and the crushing of unarmed civilians by 
armored personnel carriers (APC's). Meanwhile, while the corpses of 
civilians, most of whom were Christian, were being taken to hospitals, 
Egyptian state television misrepresented the facts, stating that 
``Coptic gangs'' had killed three soldiers and were attacking the 
military in a manner ``not even the Israelis would dare,'' even going 
so far as to exhort ``honorable Egyptians'' to come to the defense of 
their military. This incitement directly led to vigilante acts of 
sectarian violence in Cairo's streets, where some Muslims sought out 
and targeted Christians for beatings or worse.
    Expectedly but no less tragically, the SCAF's ensuing press 
conference addressing the tragedy blamed the victims and exhorted 
Egyptians to ``put themselves in the place of the soldier driving the 
APC, who was understandably confused and panicked.'' Adding insult to 
injury, the SCAF praised the role of Egyptian state tv, and when asked 
about the names of the alleged military casualties, refused to release 
them for ``security reasons.''
    Thus, in the aftermath of the revolution, the state itself has 
continued institutionalized discrimination and encouraged the growth of 
a culture of sectarianism and impunity to act on that sectarianism. 
During the last days of the Mubarak era, a Cairo based human rights 
organization had described Egypt as a ``police state infused 
increasingly with theocratic elements.'' I would submit that if you 
substitute the word ``police state'' with ``military state,'' this 
would be an accurate description of the state of things today. The 
military regime continues to count on a divide and conquer tactic to 
consolidate its power, to scapegoat the Copts to deflect from its own 
governance failures, and to sow instability and simultaneously present 
itself as the sole solution to that instability, justifying along the 
way the continuation or institution of new repressive practices and 
laws. One need only give a cursory look at SCAF's history since its 
assumption of power: over 12,000 civilians have been tried in military 
tribunals that do not meet minimum standards of due process, female 
protesters have been subjected to degrading ``virginity tests,'' the 
notorious emergency law has been extended, and numerous laws 
restricting freedom of assembly and even criminalizing criticism of the 
military have been opaquely passed and enforced in draconian fashion. 
Local rights groups are already decrying these abuses and more, 
including the SCAF's pre-election conduct which observers accurately 
note portents to substantial fraud in upcoming elections, where 
Islamists are expected to win a substantial parliamentary presence. 
This parliament, according to the SCAF's transition plan, will be 
responsible for the drafting of Egypt's new Constitution, raising 
doubts about whether such a document will embody the aspirations of 
Egyptians, as expressed through their revolution, which rejected 
notions of both autocracy and theocracy.
    Attempts by the SCAF to issue ``guiding principles'' for the 
Constitution are no comfort. While the US government may be banking on 
SCAF to turn Egypt into a pre-Erdogan Turkish model, what is actually 
unfolding is more analogous to more insidious models such as the 
Pakistani one, entailing greater power for Islamists and the 
marginalization of all other political forces. Avoiding this outcome 
requires that the US not fall into the trap it previously did with 
Mubarak, placing as it did all its bets on an authoritarian partner and 
a police state, which SCAF represents. It means that the US must insist 
that its support during and for Egypt's transition be contingent on a 
prompt and genuine democratic transition to a civilian authority which 
represents the aspirations of all Egyptians and guarantees the equal 
rights of all, starting with the immediate cessation of sectarian 
incitement and elimination of all forms of discrimination, and 
including but not limited to: immediate security sector reform 
entailing the prompt return of police to the streets; the conduct of 
free and fair elections; an inclusive and transparent constitutional 
drafting process; the elimination of laws that repress basic rights and 
the expansion of the political space to allow a greater role for civil 
society and nonreligious political parties; and a free civilian 
presidential race which represents a true handoff of power from the 
military. Egypt's civilian president must then go about undoing decades 
of the disease of pernicious sectarianism which has infiltrated society 
through undertaking substantial legal, institutional, educational, and 
media reform, all vast tasks which only a person entrusted and vested 
with the faith of Egyptians and the interests of Egypt--and not the 
interests of a few privileged generals--could assume. We owe it to 
those who sacrificed to herald a new era of freedom in the Middle East. 
We owe it to Mina Daniel, who while anticipating being killed by 
Mubarak's police forces while camped out in Tahrir Square during the 18 
day uprising, survived, only to be killed a few months later at the 
hands of Mubarak's successors, who represent more of the same.
   Prepared Statement of Samuel Tadros, Research Fellow, Center for 
                   Religious Freedom, Hudson Intitute
    Thank you Mr. Chairman for holding this timely and important 
hearing and for inviting me to testify today on the plight of Egypt's 
Christians and what it signifies for the prospects of a democratic 
transition in Egypt.
    The title of today's hearing suggests a linkage between religious 
freedom, or more precisely the lack thereof and the prospects of 
democracy in Egypt. Unfortunately this linkage has been often ignored 
by policy makers. The modern debasement of the concept of a free 
society to mean, essentially, the holding of elections has blinded many 
to the importance of religious freedom to the health and survival of 
free societies.
    The recent massacre of Copts on the 9th of October, while certainly 
significant in terms of the number of victims and the manner of their 
deaths, should not blind us to the fact that it is only a continuation 
of a previous pattern. Attempting to deal with the massacre and propose 
solutions without recognizing that pattern, would limit our 
understanding and as a result our proposed remedies.
    Previously, before the revolution, Copts were facing three distinct 
threats, from Islamists, the government and the general population. 
Each entity has its own internal considerations and goals that help to 
diminish religious freedom, but it is the dynamic relationship between 
them that creates ongoing cycles of intolerance and discrimination.
    The Islamist threat took the form of direct violent attacks on 
Copts conduct by terrorist organizations. The recent Alexandria Church 
bombing on New Year's Eve is a stark reminder of the threat that they 
pose.
    The government itself engaged in rampant discrimination. Ottoman-
era laws restricting the building of churches remained in force. 
Christians were excluded from important government positions. Egypt's 
Christian heritage was not mentioned in schoolbooks, and Copts were 
almost completely absent from the political landscape. Attacks against 
Copts almost always went unpunished.
    Most worrisome of all, in recent years, has been the spate of 
attacks by ordinary Muslims on their Christian neighbors. Starting with 
the massacre in El-Kosheh in January 2000, recent attacks usually have 
not been orchestrated by Islamist groups, but have been the result of 
ordinary Muslims' anger at something they see as an affront to Islam's 
domination and supremacy in the land of Islam: the resumption of work 
on an old church, the building of a new one, a rumor of a sexual 
relationship between a Christian man and a Muslim woman, or a report of 
a suspected lack of respect for Islam shown by a Christian. The 
incident usually involves a Muslim mob's attacking Christian homes and 
shops, ransacking, burning, and, in some cases, killing.
    The Mubarak government's reaction to such attacks only encouraged 
them further. The police never arrived in time to stop the violence, 
and when they did, they usually simply arrested a couple of dozen local 
residents, Christians and Muslims alike. The arrested Christians would 
serve as a bargaining chip that the government would use to force the 
church to keep quiet. Faced with possible harsh sentences for their 
people, the clergy felt that their hands were tied. They were made to 
participate in government-organized reconciliation sessions that 
gathered local Christian and Muslim clergymen and other notables, the 
result of which was to force the Christians to drop all charges. These 
gatherings would also, usually, pass some sentence on the Christian 
community for its apparent affront--e.g., the family of a Christian man 
rumored to be involved sexually with a Muslim woman might be forced to 
emigrate from the village and pay compensation, or the Copts might be 
forced to abandon building a church and instead conduct their worship 
in an unmarked house.
    As Egyptians took to the streets in January and February of this 
year, calling for an end to the regime's authoritarian grip on power, 
some observers were hopeful that the fall of a regime would bring about 
a change in the sectarian problem in Egypt. Egypt seemed headed to a 
transition to democracy and images of Christians and Muslims protesting 
together as well as praying in Tahrir Square created a false optimism 
on the direction that Egypt was taking.
    Reality soon became hard to ignore.
    Instead of bringing about change, the past few months have shown a 
reinforcement of pattern of religious discrimination and a substantial 
increase in the number of attack on Christians. These new attacks 
involved the same three responsible parties. Islamists, freed from any 
restraining check of the police, are now free to enforce their vision 
on Egyptian society at large and Copts in particular. This enforcement 
takes the shape both of planned attacks led by Salafis and joined by 
the local mob, such as the May attacks on churches in the Imbaba 
neighborhood of Cairo, and of daily persecutions that though mostly 
escaping the attention of the press, represent the most alarming aspect 
the threats facing Copts. Increasingly, Copts living in poorer 
neighborhoods find themselves forced to abide by certain Islamic 
practices or face possible punishment. In some cases, Christian girls 
in government schools have been forced to wear the hijab by the 
Islamist headmasters, who are now free from government control. In a 
very disturbing incident, on October 16th, Ayman Nabil Labib, a 17-
year-old Christian student was asked by his teacher to remove the cross 
tattooed on his wrist and the one he was wearing around his neck. When 
he refused, the teacher was angered and started beating him; his Muslim 
classmates joined in the beating, which resulted in his death.
    The government, meanwhile, evinces a continued lack of interest in 
protecting Christians. The solution of the Supreme Council of the Armed 
Forces to the burning of a church in Atfih in March was to invite 
Salafi preacher Mohamed Hassan to try to cool down the local Muslims. 
Appearing on national TV later, however, he explained that the attack 
was not sectarian in nature, but was driven by the discovery of black 
magic conducted in the church. No attackers were ever punished. After 
an attack on a church in Aswan on September 30, the local governor 
actually encouraged the attackers: He declared on TV that the 
Christians were to blame for a building violation and that ``our boys'' 
had corrected the wrongdoing. As a result, a culture of impunity has 
been created. Realizing that they will never be punished for their 
actions, people are emboldened to attack Christians.
    When international and local pressure for action becomes high, the 
government resorts to the old tactic of arresting Christians and using 
them as a bargaining ship with the Church leadership. Following the 
recent attack at Maspero, the government arrested a number of young 
Christians. They remain jailed as we speak.
    Most worrisome for the future of Christians in Egypt is the 
participation of the general Muslim population in these attacks. It is 
important to note here that those attacks are not driven by a desire to 
kill Christians. The goal remains for Christians to live, permanently, 
as second-class citizens. Any attempt by the Copts to break the chains 
of Dhimmitude and act as equals is seen as an affront to the supremacy 
of Islam in its own land. What fueled the attack on the Aswan church, 
for example, was not that Christians wanted to pray; they can do so, as 
long as the building in which they do so is not a church. The local 
Muslims' demands were that the building have no bells, no microphones, 
no crosses, and no domes. What instigated the attacks on the Christians 
during their march, before they were killed by the army, was their 
chants of ``Raise your head up high, you are a Copt'' and their raised 
crosses. In the new Egypt, you can exist as a Copt, but you are not 
allowed to be proud of that fact. You will be allowed to survive, but 
you must show your submission to the religion of the majority and 
recognize your inferior status.
    Faced with these growing threats, it is no surprise that the Copts 
are questioning whether there is a future for them in the new Egypt. 
Isolated and ignored by the West, the Copts can only wonder today 
whether, after 2,000 years, the time has come for them to pack their 
belongings and leave, as Egypt looks less hospitable to them than ever. 
Like the Jewish communities scattered in Europe during the Middle Ages, 
the Copts are realizing the eternal lesson of minorities' survival: 
Better the persecuting ruler than the mob. A ruler can be bought off or 
constrained by international pressure; with a mob there are no 
constraints.
    Most importantly elections are not likely to provide any remedy to 
their predicament. The rise of the Muslim Brotherhood and the more 
extremist Salafists poses an unprecedented threat to the Copts. With 
the Islamists all but guaranteed to control the next Egyptian 
Parliament, a culture of impunity is about to become a culture of 
encouragement.
    As recent events have shown, the Copts refuse to accept the 
inferior status. They refuse simply to disappear, as many ancient 
communities in the Middle East have done in the last century. They will 
continue to raise their heads up high with their crosses, but they will 
not succeed. Neither is Egypt's geography or demographic distribution 
in their favor.
    Neither is immigration. While the intensified pressure and attacks 
are likely to result in a large wave of emigration, the sheer numbers 
involved make the complete immigration of the community unfeasible 
regardless of its undesirability. The most fortunate will take the 
first planes to the U.S., Canada, and Australia, but a community of 8-
10 million people cannot possibly emigrate en masse in a short time. 
The poorer Copts, the ones who face daily persecution, will be left 
behind. For them, the winter has already arrived, and it will be cold 
and long.
    For those concerned about Egypt's future and the prospect of a 
transition to democracy, defending religious freedom remains the only 
solution. The ballot box offers no magical solution. It is merely a 
tool. Building a truly free society is like Edmund Burke wrote no easy 
task, for a free society is one where religious freedom and free 
enterprise provide the foundation on which democracy can be built.
    Egypt remains a key ally and friend of the United States. The 
direction that Egypt will take will have ramifications on the 
surrounding countries and as such is of vital importance to the United 
States national security. There is no question that the United States 
has at its disposal numerous tools to positively affect the transition 
in Egypt. The real question is whether it is willing.
    The following steps are essential to take:

    <bullet>  Last week's announcement by the head of the military 
courts that both civilians and military personal are being tried for 
the Maspero massacre offers the first admission by the Military that 
something went wrong at that incident and that they lost control of 
their soldiers. Punishment for those responsible for the massacre 
should be a first step in dealing with the incident.
    <bullet>  The parliamentary elections in Egypt will not result in 
any significant Christian representation. Nevertheless Christian 
participation in the Constitution writing process should be stressed. 
The new Egyptian Constitution must offer religious freedom for its 
citizens and equality for all Egyptians regardless of their religion.
    <bullet>  As according to the existing electoral timetable, the 
Supreme Council of the Armed Forces will continue to rule and govern 
Egypt for at least 1 year, and with the collapse of the police, the 
army is likely to continue being used for basic policing and law and 
order for some time to come. Not having gone through any policing 
training, they have shown a lack of ability to deal with such tasks. 
The US military has developed excellent manuals and built tremendous 
experience in providing law and order in conflict zones. With its 
strong ties to the Egyptian military, the U.S. Army can help provide 
them with necessary trainings.
    <bullet>  While the United States through the State Department and 
the USAID is providing numerous grants to strengthen democracy in 
Egypt, there have been disturbing reports recently that some of this 
money is being provided to Islamist parties and groups, whose 
commitment to religious freedom is doubtful. Oversight of this funding 
should ensure that this money is only given to groups committed to 
religious freedom.
    <bullet>  Copts, like their fellow countrymen are discovering 
democracy for the first time. They are challenged to organize quickly 
to be able to have a voice in their country's future. The U.S. must 
ensure that amongst the groups that it funds, adequate attention and 
funding is provided to Coptic groups that attempt to organize 
politically.

    Thank you once again for organizing and chairing this hearing and 
for inviting me to testify.
Prepared Statement of Dr. Michele Dunne, Director, Rafik Center for the 
                      Middle East Atlantic Council
    Mr. Chairman, Senator Cardin, distinguished members:
    Thank you for the honor of testifying before the Commission.
    After the celebrations of Muslim-Christian unity that Tahrir Square 
witnessed during the 18 days of the Egyptian revolution early this 
year, it is disappointing to see that sectarian tensions have escalated 
dangerously in the intervening months, leading to dozens of deaths, 
hundreds of injuries, and a spreading sense of fear among Egyptian 
Christians. The violence is not, unfortunately, particularly 
surprising, because it is to be expected that in a post-revolutionary 
climate all of the tensions and conflicts that were beneath the surface 
will emerge more openly. Sectarian tensions have been present for 
decades and were already rising noticeably in the months before the 
January 25 revolution. One of the most disturbing sectarian attacks in 
years-the bombing of a church in Alexandria in which 23 people died-
took place on January 1, following weeks of escalating anti-Christian 
demonstrations by Salafi Muslims.
    This clear and disturbing trend makes it all the more difficult to 
understand why the Supreme Council of the Armed Forces (SCAF), 
entrusted by Egyptians with authority upon the forced resignation of 
former President Hosni Mubarak, has failed to address sectarian 
violence in any effective manner. The SCAF's approach has been almost 
identical to that of the Mubarak era; that is, after each sectarian 
incident the authorities promise to investigate and prosecute crimes 
vigorously and to address the underlying causes of the incident, such 
as discriminatory laws regarding the building and alteration of places 
of worship. But as soon as public attention moves on, such efforts are 
either abandoned or long delayed, leaving the victims with a sense of 
injustice and the perpetrators with a sense of impunity, and sowing the 
seeds of further violence.
    Investigations of several incidents of large-scale anti-Christian 
violence (the January 1 Alexandria bombing as well as clashes in March 
and April in Cairo, and the October 9 Maspero incident) are ongoing and 
might well be inconclusive. With more than 75 people dead in these and 
other incidents in 2011, there has not as yet been a single conviction 
on charges of murder or manslaughter. In cases where military or 
government officials are accused of complicity in violence or at least 
irresponsibility in dealing with it--such as the October 9 incident in 
which Egyptian state media incited citizens to confront peaceful 
demonstrators and soldiers ran over them in armored vehicles-the SCAF 
has staunchly resisted accountability.
    The transitional authority supervised by the SCAF also has been 
slow to make promised legal changes to address the causes of violence. 
After a May 2011 attack on a church in Cairo, the authorities promised 
to pass a new law on construction of places of worship. The draft has 
languished in various forms for months, while many new instances of 
violence (including the Maspero incident in October) have broken out 
due to inter-communal tensions surrounding the building or renovation 
of church facilities. An anti-discrimination law was finally issued in 
the aftermath of the October violence; it is yet to be seen whether it 
will be applied.
    Anti-Christian violence is one of several serious internal Egyptian 
problems (rising crime, for example, and a deteriorating economy) with 
which the SCAF has shown itself to be unwilling or unable to deal. As a 
military organization, the SCAF is not equipped to address such issues 
and should not be called upon to do so, particularly for a prolonged 
period. That is why it is essential that the SCAF agree to a clear, 
realistic timetable to turn not only legislative but also executive 
authority over to elected civilians.
    The problem now is that the SCAF is trying to postpone the transfer 
of executive authority until it secures guarantees of its status post-
elections; and the status it is seeking is not simply a continuation of 
the extensive political influence and economic perquisites it enjoyed 
during the Mubarak era, but more than that. The SCAF has sponsored a 
document of supraconstitutional principles that would give it the 
implicit right to intervene in politics and the explicit right to 
overrule legislation, as well as freedom from civilian supervision or 
budgetary oversight. What this would produce is a political system 
similar to that of Pakistan, where elected civilian institutions are 
relatively powerless while unelected and unaccountable military and 
intelligence services actually run the country. And as we know from 
Pakistan as well as from Egypt's own history and current situation that 
in such a system military and intelligence organizations often 
manipulate sectarian tensions and extremist tendencies within the 
country in order to serve narrow agendas.
    That would be a very unhappy outcome of the January 25 revolution 
for all Egyptians, including Egyptian Christians, and also for the 
United States, which cannot escape partial responsibility for the 
actions of the SCAF due to the tens of billions in military assistance 
it has provided. The United States should stand unambiguously on the 
side of development of a real democratic system in which the rights of 
all citizens are protected in a climate of free political competition 
and the rule of law.
    Only in a democratic system will difficult issues such as anti-
Christian violence and discrimination be able to be addressed openly. 
This will not happen overnight; building a strong Egyptian democracy 
will be the project of many years. But it would be a serious mistake to 
create large new obstacles now by acquiescing to the expansion and 
formalization of military privileges out of fear that Islamists might 
gain a plurality, or even a majority, in the parliament to be elected 
over the next few months. There are many uncertainties involved when 
freely elected civilian institutions have real power; one thing that is 
already known for certain is that military rulers will fail to protect 
all citizens and enforce laws without discrimination.

                                 <all>


  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre></body></html>
